                                            UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE 

               AND THE BROADCASTING BOARD OF GOVERNORS

                               OFFICE OF INSPECTOR GENERAL


AUD-FM-13-17                                     Office of Audits                                  December 2012




 Audit of Nonproliferation and Disarmament 

   Fund Controls Over Contracting and 

   Project Management and Integrity of

              Financial Data





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED

                                                              Uniled Stales Department of State
                                                              and lhe Broadcasting Boarel of Governors

                                                              Office of Inspector General




                                            PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one ofa series
of audit, inspection, investigative, and special reports prepared as part of the OffIce of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        This report addresses the Bureau of International Security and Nonproliferation,
Nonproliferation and Disarmament Fund's controls over the contracting and project management
processes and the integrity of the Fund's financial data. The report is based on interviews with
employees and officials of the Fund, direct observation, a review of applicable documents, and
tests of controls and financial data.

       OIG contracted with the independent public accountant Kearney & Company, P.C., to
perform this audit, which was requested by Fund management. The contract required that
Kearney & Company perform its audit in accordance with guidance contained in the Governmenl
Audiling Slandards, issued by the Comptroller General of the United States. Kearney &
Company's report is included.

       Kearney & Company determined that the Fund's controls over the contracting process
were sufficient to meet many objectives but needed improvement. Although the Fund
successfully executed projects around the world to achieve nonproliferation goals, projects were
not managed consistently, and available project management functionalities were not always
used. Further, financial data was not always accurate, complete, or recorded timely.

        OIG evaluated the nature, extent, and timing of Kearney & Company's work; monitored
progress throughout the audit; reviewed Kearney & Company's supporting documentation;
evaluated key judgments; and performed other procedures as appropriate. OIG concurs with
Kearney & Company's findings, and the recommendations contained in the report were
developed on the basis of the best knowledge available and were discussed in draft form with
those individuals responsible for implementation. OIG's analysis of management's response to
the recommendations has been incorporated into the report. OIG trusts that this report will result
in more effective, efficient, andlor economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                         Harold W. Geisel
                                         Deputy Inspector General
                                                         1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                         PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




Audit of Nonproliferation and Disarmament Fund Controls Over Contracting and Project
Management and Integrity of Financial Data


Office of Inspector General
U.S. Department of State
Washington, D.C.


Kearney & Company, P.C. (Kearney) has performed an audit of Nonproliferation and Disarmament
Fund controls over contracting and project management and integrity of financial data. This
performance audit, performed under Contract No. SAQMMA09D0002, was designed to meet the
objective identified in the report section titled “Objectives” and further defined in Appendix A,
“Scope and Methodology,” of the report.

Kearney conducted this performance audit from February 2012 through September 2012 in
accordance with Government Auditing Standards, 2011 Revision, issued by the Comptroller
General of the United States. The purpose of this report is to communicate the results of
Kearney’s performance audit and its related findings and recommendations.

Kearney appreciates the cooperation provided by personnel in Department offices during the
audit.




Kearney & Company, P.C.
Alexandria, Virginia
September 5, 2012
                                  UNCLASSIFIED




Acronyms

A/LM/AQM 	   Bureau of Administration, Office of Logistics Management, Office of
             Acquisitions Management
CGFS	        Bureau of the Comptroller and Global Financial Services
CLIN 	       Contract Line Item Number
CN           	congressional notification
COR          	contracting officer’s representative
FIMS 	       Financial and Information Management System
GFMS 	       Global Financial Management System
ISN 	        Bureau of International Security and Nonproliferation
MOU          	Memorandum of Understanding
NDF 	        Nonproliferation and Disarmament Fund
NIST 	       National Institute of Standards and Technology
OIG 	        Office of Inspector General
PM           p	 roject managers
PMBOK 	      Project Management Body of Knowledge
PSC          p	 ersonal services contractor
ULO          u	 nliquidated obligation




                                  UNCLASSIFIED

                                                            UNCLASSIFIED



                                                         Table of Contents 


Section                                                                                                                                      Page
Executive Summary ........................................................................................................................ 1
 


Background..................................................................................................................................... 2
 


Objectives ....................................................................................................................................... 7
 


Audit Results................................................................................................................................... 8
 
           Finding A. NDF Contracting Process Controls Are in Place but Need Improvement ...... 8
 
           Finding B. Project Management Controls Need Improvement ....................................... 17
 
           Finding C. Data Integrity and Reporting Capabilities Need Improvement To Produce 

                      Auditable Financial Reports .......................................................................... 25
 


List of Recommendations ............................................................................................................. 36


Appendices
      A. Scope and Methodology............................................................................................... 38
 
      B. Assessment of Contracting Controls ............................................................................ 47
 
      C. Notable Financial and Information Management System Reports .............................. 48

      D. Bureau of International Security and Nonproliferation Response ................................49 





                                                            UNCLASSIFIED

                                       UNCLASSIFIED



                                    Executive Summary
        The Nonproliferation and Disarmament Fund (NDF), an office within the Bureau of
International Security and Nonproliferation (ISN), was created to enable the U.S. Government to
rapidly respond to nonproliferation opportunities. When an office within the Department of
State (Department) or other U.S. Government agency identifies a nonproliferation opportunity
that was not anticipated or budgeted, the office or agency submits a project proposal to NDF.
NDF’s projects span the world and include eliminating chemical weapons production equipment
in the Balkans and facilitating the safe removal of nuclear infrastructure from Libya. To execute
projects, NDF relies on third-party contractors and offices within the host countries, such as the
Ministry of Defense.

        NDF requested that Kearney & Company, P.C. (Kearney), acting on behalf of the Office
of Inspector General (OIG), perform this audit to assess NDF’s controls over contracting and
project management. NDF also requested that Kearney determine whether the data recorded in
NDF’s internal financial and project management system, the Financial and Information
Management System (FIMS), was valid and whether FIMS had sufficient reporting capabilities.

       Kearney found that NDF’s controls over the contracting process were sufficient to meet
many objectives but needed improvement to ensure compliance with all Federal and Department
requirements. Controls over contract initiation and modification, invoice approval, and contract
closeout were well designed but were not consistently executed. The procurement request
package for 13 of 28 contract initiations tested did not contain all necessary documents, four of
28 procurement requests tested were not approved by the NDF Director, and three of 17 contract
modifications tested were not approved, as required. There was no documentation of the project
manager’s (PM) certification of the receipt of goods or services for 36 of 143 invoices tested and
no evidence that third-party verifications were obtained, when it appeared necessary, for 69
invoices. Improvement in some of these areas occurred during the FY 2011–2012 period.
Kearney also noted that NDF did not have sufficient controls over unliquidated obligations
(ULO), a control to close out contracts in a timely manner, or a process to document the projects
for which NDF’s authority to waive Federal requirements is used. The lack of sufficient controls
over contracting could result in, among other things, delays in contract initiation and
modification, improper payments to contractors, and delays in project implementation and
execution.

        NDF had successfully executed projects around the world to achieve nonproliferation
goals, and Kearney generally found that PMs effectively managed the status of their projects.
However, Kearney found that PMs did not manage projects consistently and did not always use
the project management functionality of FIMS. Kearney also noted that FIMS did not have
adequate capabilities to help ensure that PMs sufficiently documented key project elements, such
as the scope, timeliness, and cost of work, as well as changes to these elements. Further,
Kearney noted that documentation maintenance standards were not consistently followed, and
there was no control to ensure that projects are closed in a timely manner. Without consistent
project management practices, NDF cannot ensure that it carries out its mission in the most
effective and efficient manner.
                                                  1
                                        UNCLASSIFIED
                                         UNCLASSIFIED




         Kearney found that FIMS contained accurate and complete information on the funds
received from appropriations and donations and the amounts approved for each project.
However, obligations and expenses in FIMS were not always accurate, complete, or entered in a
timely manner. Specifically, of 12 obligations in the Department’s Global Financial
Management System (GFMS) that Kearney tested, three were not recorded accurately in FIMS.
Kearney also tested 70 obligations for timeliness and identified 52 obligations that averaged 163
days between executing the obligation and recording it as final in FIMS. Although expenses
were recorded in FIMS accurately, they were not always recorded timely, and some were not
recorded at all. Specifically, Kearney tested 115 expense transactions in FIMS for timeliness and
identified 45 transactions that averaged 87 days between the date the invoice was approved and
the date the expense was recorded in FIMS. Of 45 expense transactions in GFMS tested for
completeness, 15 transactions, with a net impact of $537,000, were not recorded in FIMS.
Kearney also noted that donated funds received from other countries were not sufficiently
identifiable in contractual documents, and FIMS lacked key reporting functionality, such as the
ability to produce reports as of a specific point of time in the past or covering a specific period of
time. Because of the data inaccuracies in FIMS and the limitations of its reporting capabilities,
Kearney concluded that FIMS currently would be unable to produce auditable financial reports.

Management Comments

        In the draft of this report, OIG made 18 recommendations. Five recommendations
pertained to improving controls over contracting, specifically that NDF improve its controls over
contract initiation, contract modification, invoice approval, obligation monitoring, contract
closeout, and “notwithstanding authority” to ensure compliance with Federal and Department
requirements. In addition, five recommendations pertained to developing formal controls over
project management and the use of FIMS to ensure that key aspects of project management are
executed consistently across all projects. To the extent possible, these controls should be built
into FIMS. Further, eight recommendations pertained to developing a process to ensure that the
data in FIMS is complete, accurate, and recorded timely, and improving FIMS reporting
capabilities to meet end-user needs.

        In its November 13, 2012, response (see Appendix D) to the draft report, ISN concurred
with all 18 recommendations. Based on the response, OIG considers the recommendations
resolved, pending further action. Management’s responses and OIG’s replies to those responses
are included after each recommendation.

                                          Background
        The proliferation of weapons of mass destruction, and related materials, technologies, and
expertise, is a preeminent challenge to U.S. national security. ISN leads the Department’s efforts
to prevent the spread of weapons of mass destruction, such as nuclear, chemical, and biological
weapons and their delivery systems, through bilateral and multilateral diplomacy. ISN addresses
proliferation threats by improving physical security and export controls, using interdiction and
sanctions, and redirecting relevant technology and expertise. ISN has three major programs:

                                              2
                                         UNCLASSIFIED
                                                  UNCLASSIFIED

Nuclear Affairs, Non-Nuclear and Counter-Proliferation, and Nonproliferation Programs. The
three programs and the specific offices within each program are shown in Table 1.

Table 1. Bureau of International Security and Nonproliferation Programs and Offices
             ISN Program                                        ISN Program Offices
                                          Office of Multilateral Nuclear and Security Affairs
             Nuclear Affairs              Office of Nuclear Energy, Safety and Security
                                          Office of Regional Affairs
                                          Office of Missile, Biological and Chemical Nonproliferation
    Non-Nuclear and Counter-              Office of Conventional Arms Threat Reduction
         Proliferation                    Office of Counter-Proliferation Initiatives
                                          Biological Policy Staff
                                          Office of Cooperative Threat Reduction
                                          Office of Export Control Cooperation
    Nonproliferation Programs             Nonproliferation and Disarmament Fund
                                          Office of Weapons of Mass Destruction Terrorism
                                          Office of Strategic Communications and Outreach
Source: Prepared by Kearney based on information obtained from the ISN Internet Web site,
<http://www.state.gov/t/isn/index.htm>, accessed on July 2, 2012.

       NDF, one of ISN’s nonproliferation offices, was established to provide a means for the
U.S. Government to respond rapidly to nonproliferation and disarmament opportunities,
circumstances, or conditions that are unanticipated or unusually difficult but of high priority.
NDF’s role is to supplement U.S. diplomatic efforts to promote bilateral and multilateral
nonproliferation and disarmament activities through the development, execution, and
implementation of carefully selected projects. When an office within the Department or other
U.S. Government agency, such as the U.S. Department of Energy, identifies a nonproliferation
opportunity that was not anticipated or budgeted, the office or agency submits a project proposal
to NDF. NDF funds and executes the approved projects in coordination with these other offices
and agencies.

         In fulfilling its responsibilities, NDF

              Negotiates with foreign governments, foreign contractors, U.S. Government agencies,
               and U.S. contractors on project development and implementation issues.
              Works to secure ongoing funding for NDF nonproliferation activities.
              Determines the resource requirements necessary to implement projects and provides
               supervision accordingly.
              Manages the congressional appropriation for NDF.
              Obligates, deobligates, or reprograms NDF funds and tracks NDF expenses and
               interagency money transfers.
              Tracks program recommendations, decisions, and congressional inquiries and
               notifications.

                                                       3
                                                  UNCLASSIFIED
                                        UNCLASSIFIED


       	   Tracks program progress to measure achievements and reports results to ISN
            leadership and the Under Secretary of State for Arms Control and International
            Security.

        NDF is a small organization comprised of Department personnel and contractors,
including personal services contractors (PSC). NDF staff includes a Director, a Chief of
Operations, a Comptroller, Finance Officers, PMs, policy officers, a contract advisor, and project
support specialists. A select group of PMs, who negotiate, manage, and implement NDF’s
projects, are Department personnel, but the majority of PMs are PSCs. Most PMs are former
senior officials from military and diplomatic missions with a significant amount of experience
and knowledge in nonproliferation activities.

NDF Funding

        NDF is funded each year by the Nonproliferation, Anti-terrorism, Demining and Related
Programs appropriation. Since its creation in 1994, NDF has received $513 million in
appropriated funds. NDF received $30 million in appropriated funds during FY 2012. NDF
funds are available until they are expended to permit maximum flexibility in project
implementation. Despite the indefinite availability of the appropriated funds, the funds must be
aligned to a project before they can be spent. The Under Secretary for Arms Control and
International Security must approve all projects. Furthermore, NDF must formally notify
Congress of the projects it plans to implement through a congressional notification (CN). Once
Congress has been notified of the proposed project, a 15-day timeline is initiated during which
Congress has the opportunity to reject the proposal. If the 15-day limit elapses without rejection,
the proposal is considered to be approved by Congress, and NDF PMs may begin to implement
and execute the project. NDF cannot exceed the amount of funding included in the CN for each
project.

       NDF has also received donated funds from other countries. In 2011 and 2012, four donor
countries provided $5.9 million in funds to support NDF’s ongoing project in Libya. NDF has
entered into Memorandums of Understanding (MOU) with the donor countries. The MOUs
specify the authorized uses of the donated funds and the reporting and tracking requirements.

Contracting Process

         NDF relies on contractors to implement the projects it undertakes. In some instances, the
contracts are with a host-country government office, such as the Ministry of Defense, and in
other instances, the contracts are with third-party vendors. The contracts that Kearney reviewed
for this audit ranged in value from as low as $35,000 to as much as $17 million.

       Generally, the contracting process entails contract initiation, contract modification,
invoice approval, obligation monitoring, and contract closeout. The contract initiation,
modification, and closeout processes are commenced by NDF and completed by the Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management
(A/LM/AQM). NDF’s contract advisor assists PMs with the contracting process by providing

                                             4
                                        UNCLASSIFIED
                                              UNCLASSIFIED


information on contracting requirements and ensuring that documents are properly completed
before submission to A/LM/AQM.

        PMs serve as the contracting officer’s representative (COR) for the contracts related to
their projects. As CORs, the PMs initiate the contracting process by identifying the specific
work to be performed and preparing a procurement request package, including the statement of
work. In preparing the package, PMs must take into consideration the preferences and demands
of the host country, which may affect the award and execution of the contract.

         As work is performed under the contract, PMs must verify the receipt of goods or
services for contractor-submitted invoices. PMs often travel to project sites, affording them the
ability to personally verify the receipt of goods or services. For work performed or goods
received while PMs are not on-site, the PMs obtain third-party verification from another U.S.
Government representative, such as a U.S. Department of Energy technical monitor. After a PM
has certified that the goods or services were received, the invoice is processed in the same
manner as all other Department invoices at the Bureau of the Comptroller and Global Financial
Services (CGFS) in Charleston.
                                                                                                          1
        Throughout the contract life cycle, PMs are responsible for ensuring that the ULOs for
their contracts are valid; that is, the balances on the obligations are still needed. When PMs
identify a ULO that is no longer needed, the PM must notify the Finance Officer that the ULO
may be deobligated. NDF also performs informal periodic reviews of its ULOs and participates
in Department-wide quarterly ULO reviews coordinated by CGFS. At the time of this audit,
NDF had 98 ULOs with an available balance of $69.8 million.

        When work on the contract has been completed, NDF initiates the contract closeout
process. In order to close out a contract, PMs should create a closeout package stating that all
work has been completed and coordinate with NDF’s Finance Officer to ensure that final
invoices have been received, paid, and reconciled. A closeout checklist, consistent with the
Department of State Acquisition Regulation, should be completed and submitted to A/LM/AQM
so that the contract can be closed and any remaining funds deobligated.

       NDF funding has been provided “notwithstanding any other provision of law.”2 This
means that, with proper authorizations, NDF can override any portion of any law or regulation.
For example, despite Federal Acquisition Regulation requirements that Government offices “Buy
America,” NDF is permitted to obtain goods or services from foreign contractors. NDF may also
award contracts without complying with Federal Acquisition Regulation requirements relating to
competition. “Notwithstanding authority” is an extraordinary authority granted to NDF by
Congress for use in special circumstances. Therefore, this authority should be invoked only if
necessary.

1
  The U.S. Standard General Ledger defines a ULO as “the amount of goods and/or services ordered that have not
been… received and for which amounts have not been prepaid or advanced.”
2
  Consolidated Appropriations Act, 2012, Pub. L. No. 112-74, 125 Stat. 786 (2011), and prior year appropriation
legislation.

                                                   5
                                              UNCLASSIFIED
                                                 UNCLASSIFIED



Project Management Process

        Each NDF project has a specific objective, such as facilitating the safe removal of the
nuclear infrastructure in Libya. NDF performs a number of tasks to accomplish each project’s
objective including obtaining the host county’s permission to perform the work and procuring
goods and services to support project execution. NDF may enter into one or multiple contracts
or MOUs to accomplish each task within a project. Since its inception in 1994, NDF has
completed 146 projects. At the time of this audit, there were 46 active projects, funded for
approximately $323 million, and 43 projects in the closeout phase, funded for approximately
$105 million. Of 46 active projects, 34 were country-specific projects and 12 were for
administrative tasks, such as FIMS development and maintenance. Examples of notable NDF
country-specific projects are provided in Table 2.

Table 2. Notable Nonproliferation and Disarmament Fund Projects by Activity
      Nonproliferation
                                                                        Project
         Activity
                                 Removed more than 100 pounds of at-risk highly enriched uranium from
                                 the Vinca Institute in Belgrade, Serbia, to secure storage in Russia,
           Nuclear               regulated by the International Atomic Energy Agency
                                 Facilitated the safe removal of nuclear infrastructure from Libya to secure
                                 facilities in the United States
          Biological             Destroyed high-capacity fermenters in Kazakhstan
                                 Eliminated chemical weapons production equipment and facilities and
          Chemical
                                 secured chemical agents in the Balkans
                                 Destroyed nearly 40,000 munitions (including fuses, detonators, sea
        Conventional
                                 mines, air bombs, and torpedo bodies) in the Republic of Albania
                                 Eliminated Soviet-era short-range, tactical ballistic surface-to-surface
                                 Missile Technology Control Regime Category I missiles in Bulgaria,
       Ballistic Missile         Slovakia, Poland, Hungary, and Libya
                                 Eliminated SCUD missiles in Ukraine
Source: Prepared by Kearney based on information obtained from the NDF Internet Web site,
<http://www.state.gov/t/isn/ndf/index.htm>, accessed on July 2, 2012.


        The project management process includes planning, executing, monitoring, and closing
out projects. Project planning occurs before the project is approved and is typically performed
by the Department office or other U.S. Government agency proposing the project with NDF’s
input and advice. The Director and Chief of Operations assign projects to PMs based upon their
expertise.

        PMs monitor their projects by tracking the status of the work and funding primarily
through status reports. PMs receive status reports via e-mails, cables, or telephone from the
contractor or the embassy in the host country. These reports are received on a daily, monthly, or
quarterly basis depending on the project and contract terms. PMs also perform site visits to
ensure that project objectives are being met. If PMs encounter uncontrollable environmental

                                                      6
                                                 UNCLASSIFIED
                                              UNCLASSIFIED


issues during project execution, such as civil unrest, PMs coordinate with the Director, Chief of
Operations, and, if necessary, the Under Secretary for Arms Control and International Security to
determine the potential next steps for the project.

        After project objectives have been met, PMs initiate project closeout. All contracts
related to the project must be closed to complete the project closeout process. If unspent funds
remain for the project, the funds are available for use on future projects.

NDF’s Financial and Information Management System

        According to NDF management, the Department’s official financial system of record,
GFMS, did not provide the information necessary to track funds at the project level and manage
projects effectively. Additionally, NDF staff could not access information in GFMS from
remote locations. To address these needs, NDF developed and implemented FIMS, which is a
customized, internal, cloud-based system, built on the Salesforce3 platform and hosted on
Salesforce servers. NDF operates FIMS on a dedicated Internet network connection.

       FIMS’ primary purpose is to ensure that amounts expended for a project do not exceed
the amount in the CN. To track funds, NDF records in FIMS the funds received through
appropriations and the amount approved by Congress, obligated, and spent for each project.
FIMS is only used by NDF and does not interface with GFMS or other Department financial
management systems. Therefore, NDF must manually record financial data in FIMS and
perform periodic reconciliations to ensure that the information in FIMS is consistent with the
information in GFMS for budget execution and financial reporting purposes. Recently, NDF
enhanced FIMS’ capabilities by adding project management features, improved reporting, and
document storage.

                                                  Objectives
        The objectives of this audit were to

            Assess the sufficiency of NDF controls over the contracting process.
            Assess the sufficiency of NDF controls over the project management process.
            Determine whether the integrity of the data in FIMS is sufficient to prepare
             auditable financial reports for external users.




3
 Salesforce.com, Inc., is a global enterprise software company. Salesforce has been certified by the General
Services Administration, Federal Risk and Authorization Management Program.

                                                   7
                                              UNCLASSIFIED
                                       UNCLASSIFIED


                                        Audit Results

Finding A. NDF Contracting Process Controls Are in Place but Need
Improvement
       NDF’s controls over the contracting process were sufficient for some contract
requirements but needed improvement to ensure compliance with all Federal and Department
requirements. To test the controls over the contracting process, Kearney reviewed
documentation for the contracts related to 15 judgmentally selected NDF projects. (Kearney’s
sampling methodology is detailed in Appendix A.)

        Kearney found that NDF had established and implemented effectively designed controls
over its contracting process, including contract initiation, contract modification, invoice
approval, and contract closeout. However, some established controls for contract initiation,
contract modification, and invoice approval were not operating effectively. Although Kearney
identified deficiencies in these controls, Kearney noted that, in some cases, the number of
deficiencies decreased in FYs 2011 and 2012 from prior years.

       Although NDF had some controls in place, Kearney identified controls that should have
been in place but were missing. Specifically, NDF did not have adequate controls to monitor its
ULOs, close out its contracts timely, and document the projects for which NDF used
notwithstanding authority.

         The control issues identified occurred primarily because NDF staff did not always follow
NDF’s internal processes or procedures, and the control environment had not been fully
developed. The lack of sufficient control over contracting could result in delays in contract
initiation and modification, improper payments to contractors, invalid obligations, insufficient
funding, inappropriate use of NDF’s notwithstanding authority, and delays in project
implementation and execution.

NDF Had Established Contracting Process Controls

        NDF had established properly designed controls for contract initiation and modification,
invoice approval, and contract closeout. In an effort to streamline the contracting process,
A/LM/AQM and NDF have established an MOU to document the contract initiation,
modification, and closeout processes. Based on this MOU, NDF developed a COR Handbook
that documents the required process for executing a contract and issuing a contract modification.
The NDF process also includes obtaining the NDF Director’s approval for all contract actions.

       NDF had also established controls to ensure that goods and services are received before
an invoice is paid. PMs must certify the receipt of goods and services, and NDF’s Comptroller
must approve invoices and travel vouchers.

       Additionally, NDF had established controls for contract closeouts. PMs must obtain a
formal release letter from the vendor to ensure that no future payments are required; complete a

                                            8
                                       UNCLASSIFIED
                                        UNCLASSIFIED


COR Completion Certificate certifying to A/LM/AQM that all work has been completed and the
final payment has been made; and complete a COR Closeout Checklist certifying that all
required closed-out items were accomplished in the appropriate order outlined in the MOU with
A/LM/AQM.

Control Activities for Contract Initiation, Contract Modification, and Invoice Approval
Were Not Operating Effectively

       Although NDF had established some controls over the contracting process, Kearney
found that the controls related to contract initiation and modification and invoice approval were
not being executed effectively or as designed. (A list of the key controls tested and Kearney’s
conclusions on their operating effectiveness is provided in Appendix B.)

          Contract Initiation and Modification

        Kearney found that NDF did not always complete all required documents or obtain the
necessary approvals prior to initiating a contract. NDF does not have contract authority. In
order to execute a contract, NDF submits a procurement request to A/LM/AQM, and a
contracting officer initiates and executes a contract on NDF’s behalf. NDF’s COR Handbook, as
well as the Department’s Foreign Affairs Handbook,4 requires that each procurement request
submitted to A/LM/AQM include, among other things, the following eight items, if applicable:

             Specifications/Performance Work Statement/Changes to Performance Work
              Statement for Modifications.
             Inherently Governmental Function Determination.
             Independent Government Cost Estimate.
             Funding/Requisition document.
             COR nomination.
             Technical Evaluation Criteria and Plan.
             Justification for Other Than Full and Open Competition.
             Recommended source list.

NDF’s COR Handbook also requires that all procurement request packages be approved by the
NDF Director.

       Kearney tested a sample of 28 contracts for contract initiation and preaward controls.
Specifically, Kearney reviewed the procurement request packages for the 28 contracts to
determine whether the packages contained the documents listed above and the required
approvals. Of 28 contracts tested, Kearney found that the procurement request package for 13
contracts was not properly prepared prior to the submission of the procurement request to
A/LM/AQM. Specifically, each of these 13 contract initiations lacked one or more of the
following documents:


4
    14 FAH-2 H-332.2, “Attachments.”

                                             9
                                        UNCLASSIFIED
                                                    UNCLASSIFIED



             Inherently Governmental Function Determination. 

             COR nomination. 

             Technical Evaluation Criteria and Plan. 

             Justification for Other Than Full and Open Competition.

             Recommended source list. 


In addition, Kearney identified four instances in which the procurement request was not
approved by the NDF Director.

       Kearney noted that the number of instances in which the required documentation was not
prepared decreased recently (FYs 2011–2012), indicating that NDF had improved its
performance in this area. Table 3 provides the results of the contract initiation tests by period.

Table 3. Contract Initiation Test Results
                                                           Procurement Request
                                                                                                  Procurement Request
                                                             Package Lacked
                            Total Tested                                                          Not Approved by NDF
                                                                Supporting
     Fiscal                                                                                             Director
                                                              Documentation
     Years
                    Number               Dollar           Number        Dollar                   Number         Dollar
                       of                 Value              of         Value                       of           Value
                    Contracts         (in millions)       Contracts (in millions)                Contracts   (in millions)
  2007–2010                16                  $9.9               9          $8.8                        2            $0.6
  2011–2012                    12                23.7                 4               17.8              2             0.6
         Total                 28              $33.6                 13              $26.6              4            $1.2
Source: Prepared by Kearney based on the results of its tests of contract initiation controls.


       Additionally, Kearney tested the controls over contract modifications. According to the
COR Handbook, the terms of the modification and documentation supporting the need for the
modification are required for submission to A/LM/AQM. NDF’s internal process requires that
the Director approve contract modifications prior to submission to A/LM/AQM. Based on a
sample of 17 contract modifications valued at $4.5 million, Kearney determined that
documentation supporting the need for the modification was prepared for all modifications.
However, Kearney identified two no-cost modifications that were not approved by the Director
and one modification totaling $158,000 that was not approved by either the PM or the Director.

       NDF controls over contract initiation and modification were not effective because the
PMs did not consistently follow the requirements in the COR Handbook, and NDF did not have
a process in place to ensure compliance. To help ensure compliance with contract initiation and
modification requirements, NDF could develop internal checklists listing all required documents
and approvals. The checklists would then be completed and included with each procurement
request package and modification request before the requests are approved by the NDF Director.

       If all required documents are not submitted with contract initiation and modification
requests, A/LM/AQM must either prepare the missing documents without NDF’s input or
contact NDF to obtain the missing documents. An A/LM/AQM official stated that this situation
                                               10
                                       UNCLASSIFIED
                                                UNCLASSIFIED


delays issuing contracts and modifications, which may prevent NDF from initiating projects in a
timely manner. In addition, if requests are submitted without proper approvals, the requests may
be incomplete, unnecessary, or inaccurate.

       Recommendation 1. OIG recommends that the Nonproliferation and Disarmament Fund
       develop and implement a standardized procedure to help ensure compliance with contract
       initiation and modification documentation and approval requirements.

       Management Response: NDF concurred with this recommendation, stating that it
       would work to “provide and organize an appropriate electronic storage location for
       samples of the various documents used in contract initiation and modification.”

       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that NDF has
       implemented a standardized procedure for contract initiation and modification
       documentation and approval.

       Invoice Review Process

        Kearney found that NDF often did not effectively execute its invoice approval controls.
Kearney tested a sample of expense transactions for invoice approvals, including the PM
certification of the receipt of goods or services and the Comptroller certification of funds
availability and invoice approval. To determine whether the PM was properly certifying the
receipt of goods or services, Kearney obtained the PM’s certification submitted to the Finance
Officer prior to payment. As shown in Table 4, Kearney identified 36 instances, totaling $1.7
million, where the PM did not properly certify the receipt of goods or services.

            Table 4. Certification of Goods or Services Test Results
                                                                       Lacked PM Certification of
                                        Total Tested*
                 Fiscal                                                    Goods or Services
                 Years
                                 Number           Dollar Value          Number            Dollar Value
                                of Invoices       (in millions)        of Invoices        (in millions)
              2005–2010                 114               $26.3                 27                  $1.6
              2011–2012                    29                   6.7                 9                    0.1
                     Total                143                $33.0                36                   $1.7
            Source: Prepared by Kearney based on the results of its tests of invoice controls.

            *The planned sample size for testing was 159 items, totaling $51.9 million. However, the actual

            sample size was less because the controls tested did not apply to every transaction in the planned

            sample.



        PMs certify receipt of goods or services based on their personal verification of receipt or
third-party verification. When PMs are on-site, third-party verification is not required. Based on
a review of invoice supporting documentation, travel vouchers, and trip debrief reports, Kearney
determined whether third-party verification was necessary. For the 93 invoices that required
third-party verification, Kearney reviewed documentation for evidence that the PM received the
                                                11
                                        UNCLASSIFIED
                                                   UNCLASSIFIED

third-party verification prior to approving the invoice. Kearney identified 69 instances, totaling
$26.6 million, in which the PMs did not have documentation showing that they obtained third-
party verification prior to certifying the invoice for payment, as shown in Table 5.

              Table 5. Third Party Verification Test Results
                                                                          Lacked Evidence of Third
                                          Total Tested*
                   Fiscal                                                    Party Verification
                   Years
                                  Number            Dollar Value          Number            Dollar Value
                                 of Invoices        (in millions)        of Invoices        (in millions)
                2005–2010                 87                $25.4                 65                 $24.5
                2011–2012                      6                 6.5                   4                   2.1
                       Total                 93               $31.9                  69                $26.6
              Source: Prepared by Kearney based on the results of its tests of invoice controls.

              *The planned sample size for testing was 159 items, totaling $51.9 million. However, the actual

              sample size was less because the controls tested did not apply to every transaction in the planned

              sample.


Kearney found 23 invoices, one of which was recent, that had exceptions for both categories of
control activities tested. That is, the PM did not certify that the goods or services were received,
and there was no documentation of third-party verification.

        Kearney noted that NDF had improved its performance for the two control activities
tested. Kearney’s analysis of the results of its tests indicated that the deficiencies for the two
internal control activities tested decreased from a 46 percent error rate for FYs 2005–2010 to a
37 percent error rate for FYs 2011–2012, the most recent period.

        To determine whether NDF’s Comptroller was checking funds availability and approving
the invoice, Kearney obtained documentation to support the Comptroller’s approval of 139
invoices, totaling approximately $52 million.5 Kearney identified only four invoices, totaling
$1,600, for which the Comptroller did not approve the invoice or did not provide documentation
of the approval. None of these exceptions were from invoices approved during FYs 2011–2012.

       The PM’s certification of the receipt of goods and services demonstrates execution of
relevant COR responsibilities. The Foreign Affairs Handbook states that “the COR should
review [invoices] to determine the validity of costs claimed and relate total expenditures to the
physical progress of the contract.”6 In addition, the Foreign Affairs Manual requires approval of
invoices to ensure that “all processed payments are supported by valid obligations.”7

5
  The planned sample size for testing was 159 transactions, totaling $51.9 million. However, the actual sample size
was less because the control tested did not apply to every transaction in the planned sample. Specifically, the
invoices selected included refunds, for which the comptroller’s approval is not necessary. The 20 transactions for
which the procedures were not applicable had a net impact to the amount tested of $141,000.
6
  14 FAH-2 H-522.4, “Reviewing Vouchers.”
7
  4 FAM 223.1-5, “Payment of Obligations.”

                                                        12
                                                   UNCLASSIFIED
                                        UNCLASSIFIED


        The control deficiencies identified occurred primarily because the third-party verification
was often received through e-mail or in another informal manner and was not maintained as
supporting documentation for the invoice. Additionally, PMs did not document whether they
personally certified or received third-party verification, which made it difficult to determine
whether third-party verification was necessary. If third-party verification was received, the
format of this verification should be noted so that its existence can be validated. NDF should
consider building the certification process into FIMS. Without proper certification by an
individual who has direct knowledge of the goods or services, payments may be made for goods
or services that NDF does not receive.

       Recommendation 2. OIG recommends that the Nonproliferation and Disarmament Fund
       improve the invoice approval process to ensure that project managers receive and
       maintain the appropriate documentation to support their certification of the receipt of
       goods or services.

       Management Response: NDF concurred with this recommendation, stating that it
       would review the process used “to certify and establish standards for document
       retention.”

       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that NDF has improved its
       process for receiving and documenting the certification of the receipt of goods or
       services.

Additional Controls Are Necessary for an Effective Control Environment

       Kearney identified activities for which controls should have been in place but were
missing. Specifically, NDF did not have properly designed controls related to ULO monitoring
and no controls to ensure the timeliness of contract closeouts or to document the projects for
which NDF used notwithstanding authority.

       Unliquidated Obligations

        NDF did not have an effectively designed control to ensure that its ULOs were
proactively monitored for validity. Department offices and bureaus should have a two-step ULO
monitoring process—a regular internal review of all open obligations and participation in the
Department-wide ULO review. According to the NDF Comptroller, NDF has an informal,
undocumented process to review ULOs on a periodic basis. Specifically, the Finance Officer
runs a status of funds report in GFMS and judgmentally identifies obligations that appear to be
invalid. The Finance Officer coordinates with the corresponding PMs to ensure the validity of
those obligations. This internal process is performed on an ad hoc basis. Also, on a quarterly
basis, CGFS sends a report to NDF’s Comptroller identifying ULOs that NDF should review for
validity. NDF’s Finance Officer investigates the ULOs identified by CGFS by following up with
PMs to verify that the unliquidated balance is still needed. If ULOs are determined to be invalid,
the Finance Officer deobligates the ULO in both GFMS and FIMS.

                                             13
                                        UNCLASSIFIED
                                             UNCLASSIFIED


         Kearney reviewed the 98 NDF ULOs in the Department’s March 31, 2012, ULO
database from GFMS’s Data Warehouse and identified 46 ULOs, amounting to $2.7 million, that
had no expenditures since July 2011. These 46 ULOs would have been subject to both NDF’s
internal review process and the CGFS’s ULO review. Kearney reviewed activity on these ULOs
subsequent to March 31, 2012, to determine whether NDF’s internal process or the CGFS’ ULO
review identified and deobligated invalid ULOs. Kearney noted that 24 of 46 obligations had
been deobligated. The remaining 22 obligations, amounting to $1.5 million, remained open
through June 22, 2012. Kearney inquired with PMs about these obligations and was informed
that all 22 were invalid. Kearney concluded that NDF’s informal process was not properly
designed.

        Federal appropriation law requires that obligations be recorded “only when supported by
documentary evidence.”8 In addition, the Foreign Affairs Manual states that “periodic reviews
are to be performed not less frequently than monthly to ensure that unliquidated obligation
balances and disbursements are valid.”9

       NDF had not developed and implemented a formal, periodic internal ULO review
process. In addition, as part of the Department-wide ULO second quarter analysis, CGFS
provided a list of ULOs to NDF for review, which NDF received on April 30, 2012. As of June
22, 2012, NDF had not yet completed its research and concluded on the validity of a number of
the ULOs on the CGFS list.

        Because NDF did not have effective controls over ULO monitoring, NDF’s ULO balance
was overstated by $1.5 million as of March 31, 2012. Further, NDF’s funds are available for an
indefinite period. If the unneeded obligations were deobligated, the funds would be available for
new obligations immediately. By keeping the funds committed to invalid obligations, NDF
limits the funding available to accomplish other project goals.

          Recommendation 3. OIG recommends that the Nonproliferation and Disarmament Fund
          develop an internal process to review unliquidated obligations on a periodic basis and to
          validate the quarterly list of unliquidated obligations provided by the Bureau of the
          Comptroller and Global Financial Services in a timely manner.

          Management Response: NDF concurred with this recommendation, stating that it
          would enhance FIMS in order to produce a report of ULOs “grouped by NDF project”
          that will be “automatically run each month” and be “sent to NDF Finance users and the
          appropriate NDF project managers.” In addition, the NDF Comptroller will “provide a
          policy memo describing the internal NDF ULO review process.”

          OIG Reply: OIG considers the recommendation resolved. The recommendation can be
          closed when OIG reviews and accepts documentation showing that NDF has
          implemented a standardized process for periodically reviewing ULOs.

8
    31 U.S.C. § 1501, “Documentary Evidence Requirement for Government Obligations.”
9
    4 FAM 087.2, “Obligation Validity Criteria.”

                                                  14
                                             UNCLASSIFIED
                                                UNCLASSIFIED



           Contract Closeout

        NDF did not have a control in place to ensure that contracts were closed out in a timely
manner. As there were no controls in place, Kearney did not perform testing over the timeliness
of closeouts. However, while performing other audit procedures, Kearney noted that contract
closeouts often occurred years after the work was completed. For example, the final invoice for
one contract was paid on July 20, 2009. However, the contract was not closed until August 29,
2011, approximately 2 years later.

       The Department of State Acquisition Regulation states that “[t]he contract closeout
process shall begin as soon as possible after the contract is physically completed.” Physical
completion occurs when “the contractor has delivered the required supplies and the Government
has inspected and accepted them, or the contract has performed and the Government has
accepted all services required by the contract, and the base period and any option periods
exercised have expired.”10

        NDF had developed and implemented a contract closeout process and included specific
steps required to close out a contract in its COR Handbook. However, these steps do not include
a required timeframe in which the closeout must be initiated or completed, and NDF’s process
historically was to close contracts during the project closeout process. Project closeout can be
more involved and time consuming than contract closeout because the data in FIMS for the
entire project must be reconciled to GFMS, a project accomplishment report must be prepared,
and there may be more than one contract on the project. NDF’s funds are available for an
indefinite period. Delaying the closeout of all contracts related to a project until the entire
project is closed may leave unused funds on completed contracts. If the contracts were closed
out in a timely manner, these unused contract funds could be returned to the project level to fund
additional contracts or obligations to accomplish the project mission.

           Recommendation 4. OIG recommends that the Nonproliferation and Disarmament Fund
           develop and implement a formal process to close out contracts in a timely manner.

           Management Response: NDF concurred with this recommendation, stating that it
           would work to “provide and organize an appropriate electronic storage location for
           samples of the various contract closeout documents.” In addition, NDF stated that it
           would “develop standard timeframes for NDF CORs to present contract closeout
           documentation packages.”

           OIG Reply: OIG considers the recommendation resolved. The recommendation can be
           closed when OIG reviews and accepts documentation showing that NDF has
           implemented a process to close out contracts timely.




10
     Department of State Acquisition Regulation, subpar. 604.804-70, “Contract closeout procedures.”

                                                     15
                                                UNCLASSIFIED
                                       UNCLASSIFIED



       Notwithstanding Authority

         NDF did not document when notwithstanding authority was used. Kearney requested a
list of projects where notwithstanding authority was used and the details on the specific laws and
regulations that were waived for each project. NDF was unable to provide this documentation
because it was not maintained by NDF or by any other Department office. During review of
CNs for other audit procedures, Kearney observed that, although language was included in some
CNs indicating that the notwithstanding authority would be used, the existence of this language
did not necessarily indicate that the authority was used. Further, it is not required that this
language be included in the CN if the notwithstanding authority is only used to override portions
of the Federal Acquisition Regulation.

       The Government Accountability Office’s Standards for Internal Control in the Federal
Government states that “significant events need to be clearly documented, and the
documentation should be readily available for examination.” According to NDF management,
NDF can exercise notwithstanding authority by obtaining formal approvals. PMs must
coordinate with the Office of the Legal Adviser and A/LM/AQM to ensure that the appropriate
approvals are obtained.

       NDF did not maintain a list of projects for which it used the notwithstanding authority
because NDF is not directly involved in the process of identifying instances where the
notwithstanding authority is needed. Instead, these determinations have been made by
A/LM/AQM and the Office of the Legal Adviser.

        Without documentation of each use of the notwithstanding authority, Kearney could not
verify that the appropriate approvals for using the authority were obtained. In addition, NDF
could not ensure or provide verification that the authority was properly invoked.

       Recommendation 5. OIG recommends that the Nonproliferation and Disarmament Fund
       develop a process to formally document the projects for which the “notwithstanding
       authority” is used, including when it is invoked to override portions of the Federal
       Acquisition Regulation.

       Management Response: NDF concurred with this recommendation but stated that it
       “already documents all requests” to use notwithstanding authority, which are “cleared”
       with the Office of the Legal Adviser.

       OIG Reply: OIG considers the recommendation resolved. Although NDF had obtained
       clearance from the Office of the Legal Adviser to use the authority, this authority was
       sometimes granted for projects that did not actually take advantage of the waiver. The
       recommendation can be closed when OIG reviews and accepts documentation showing
       that NDF has developed a process to formally document the projects for which
       notwithstanding authority is used.



                                            16
                                       UNCLASSIFIED
                                        UNCLASSIFIED



Finding B. Project Management Controls Need Improvement
       Although Kearney found that NDF had an experienced and successful project
management team, project management controls needed to be improved. Specifically, Kearney
found that PMs did not manage projects consistently, and FIMS project management capabilities
for documenting project issues and other project details were not used effectively. Kearney also
noted that FIMS did not yet have full project management capabilities to assist PMs in
documenting and monitoring key project elements, such as scope, schedule, cost, quality, and
risk. Additionally, project management documentation was not readily accessible and often only
maintained in e-mails that could be misfiled or deleted. Further, Kearney noted that NDF did not
have a control to ensure that projects are closed in a timely manner.

       Overall, Kearney found that these issues existed because there were no formal controls
over the NDF project management process. Without an effective control environment, NDF
management cannot ensure that it carries out its mission in the most effective and efficient way,
and management has limited oversight capability. In addition, project management activities
performed outside of FIMS may not be performed, and management may not have the
documentation necessary to support project management decisions. Further, funds that could be
used for other purposes may remain on completed NDF projects.

Project Management Team is Experienced and Knowledgeable

        During its communications with PMs and review of documentation, Kearney observed
that PMs are knowledgeable and experienced in planning, monitoring, and executing
nonproliferation projects. According to NDF management, PMs are selected based on their
familiarity with nonproliferation efforts and diplomatic negotiations, and management assigns
projects to the PMs with the expertise required for the specific projects. The PMs’ knowledge,
experience, and negotiation skills form the foundation that enables NDF to successfully respond
to urgent nonproliferation needs around the world. During this audit, PMs demonstrated an in-
depth knowledge of the current status of their projects, and they were able to discuss key project
elements, such as the scope of work, in detail. Further, Kearney saw evidence that when PMs
encountered project issues, they promptly addressed the issues in order to continue to execute the
project. For example, NDF encountered several challenges and issues throughout one project,
and the PM and NDF management resolved these issues without jeopardizing the project
mission.

Project Management Practices Were Inconsistent

        Although NDF has successfully completed a number of critical nonproliferation projects,
Kearney noted that project management practices were not consistent across NDF. In 2010,
NDF developed an NDF Project Management Guide to provide PMs with the resources and tools
needed to manage project planning, implementation, and closeout. The guide includes, among
other things, a planning checklist, a status report template, a deliverables template, and a closeout
checklist. Based upon its review of 15 selected projects, Kearney noted that projects were
managed inconsistently, and project management activities for many of the projects were not
performed in compliance with the guide. For example, the NDF Project Managers Planning
                                                  17
                                          UNCLASSIFIED
                                        UNCLASSIFIED


Worksheet included in the guide instructs the PM to identify the tasks, or activities, required to
complete the project and the planned start and end date for each task. The specific activities
required to complete the project were not identified for two of 15 projects, and the duration of
the activities was not estimated for an additional two projects. Although the activities and their
durations were documented for 11 of 15 projects, the level of detail at which this was performed
varied widely. The NDF Project Managers Planning Worksheet also requests that the PM
identify the issues and risks related to the project. However, risks were not documented during
the project planning or execution process for any of the 15 projects.

        The inconsistencies identified occurred because the guide was considered optional—PMs
did not have to comply with the instructions in the guide. NDF’s Director stated that it is
important to allow PMs the maximum flexibility in overseeing their projects. The PMs are
experienced project managers. In addition, each NDF project has a unique objective, is executed
in a different country, and involves a certain degree of risk to the safety and lives of those
carrying out the project. Given this environment, the Director promotes a culture in which PMs
are enabled to develop their own project management approach to execute their projects.

        Kearney agrees that the circumstances in which NDF works are unique and inherently
difficult. However, the elements necessary for effective project management are relatively
consistent across all projects. If projects are managed in an inconsistent manner that is not in
compliance with the guide, some key elements of project management could be missed.
Effective project management helps ensure that a project achieves its mission, is completed on
time, and is completed at or below expected costs. By allowing PMs to execute projects ad hoc,
NDF cannot ensure that it is carrying out its mission to further U.S. nonproliferation efforts in
the most effective and efficient manner.

       Recommendation 6. OIG recommends that the Nonproliferation and Disarmament Fund
       identify key project management controls and implement a policy to require compliance
       with these key controls.

       Management Response: NDF concurred with this recommendation, stating that it
       would “identify key project management controls and recommend a compliance policy.”

       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that NDF has
       implemented a policy requiring compliance with key project management controls.

Existing FIMS Project Management Capabilities Were Not Used Effectively

        Kearney found that not all PMs were taking full advantage of the FIMS project
management capabilities currently available. Recent enhancements to FIMS included adding
three project management features—Project Issues, Next Actions, and the “NDF Award Detail”
screen.



                                             18
                                        UNCLASSIFIED
                                               UNCLASSIFIED



         Project Issues and Next Actions

        The project issues and next action features allow PMs to enter project information to
assist with tracking and monitoring the resolution of any issues that arise during project
execution. Kearney identified instances in which projects had encountered issues, but the PMs
had not entered those issues into FIMS. For example, one project had been significantly delayed,
but these delays were not detailed in FIMS as issues. For each issue, FIMS has a section where
the PMs can enter the next actions of the project. For instance, if the project was not performing
on schedule, the PM can enter a planned resolution to keep the project on track. Kearney found
many instances where the next action functionality was not used.

         NDF Award Detail

        The “NDF Award Detail” screen allows the PMs to enter contract awards and specific
                                     11
contract line item numbers (CLIN). This information assists the PM in tracking funding and
deliverable status for each project by CLIN to help ensure that NDF remains within the project
budget and receives project deliverables on schedule. When contracts are awarded, the Finance
Officer creates an award document in FIMS and links this document to the obligation. For each
award, PMs should enter the specific award details in the “NDF Award Detail” screen, including
the CLIN and deliverable number, description, value, due date, and status. Kearney noted 26
contracts that were entered as obligations in FIMS but were not identified as awards. Further,
Kearney noted that some awards were entered into FIMS, but the “NDF Award Detail” screen
had not been populated. For example, an award was created for one project in FIMS, but no
award deliverable or CLIN information was entered, which made it difficult for the PM to track
the award.

         The lack of or inconsistent use of FIMS project management features occurred because
NDF had not established required fields in FIMS or policies or procedures regarding the PM’s
use of FIMS. The Project Issues and Next Actions fields were created so that NDF management
could monitor the issues affecting each project. The “NDF Award Screen” was created to
facilitate the PM’s monitoring of the contract and review of invoices. These are key activities
for the PM. Not using the fields for all projects limits NDF management’s oversight capabilities.

         Recommendation 7. OIG recommends that the Nonproliferation and Disarmament Fund
         develop and implement policies regarding the use of the Financial and Information
         Management System (FIMS) for project management and, to the extent possible, add
         controls to FIMS that require the completion of key fields.

         Management Response: NDF concurred with this recommendation, stating that “some
         key fields have been identified already” and that as an “enhancement to FIMS, more
         formal project management controls are possible” and NDF would “determine what
         controls might add value to the process.”

11
  CLINs are established to separate specific deliverables and/or to segregate the contract in another manner, such as
by labor category.

                                                    19
                                               UNCLASSIFIED
                                           UNCLASSIFIED




        OIG Reply: OIG considers the recommendation resolved. The recommendation can be
        closed when OIG reviews and accepts documentation showing that NDF has developed
        and implemented a policy regarding the use of FIMS for project management and added
        key controls to FIMS.

FIMS Lacked Full Project Management Capabilities

        Although NDF developed FIMS to assist with project management, FIMS does not yet
have the capabilities to support PMs in managing their projects effectively. The Project
                                    12
Management Body of Knowledge (PMBOK) recommends that organizations document key
project elements, including project scope, schedule, cost, quality, and risk, and track the changes
to these elements as the project is executed. Kearney noted that FIMS did not have the capability
to document and track these elements.

        Project Scope

         FIMS does not enable PMs to sufficiently document the scope of work for each project or
the changes to project scope. Within FIMS, project scope is documented at a high level; that is,
the country in which the work is performed and the overall objective is included. However, there
is no specific place to break down the overall scope into the various tasks or activities required to
achieve the objective. Additionally, there is no specific place to document changes to the scope.
For example, during the implementation of a project in Libya, the scope changed significantly.
Although there were e-mails and memoranda documenting and approving the change in scope
for this project, the details of the changes were not documented in FIMS.

         PMBOK states: “Project Scope Management includes the process required to ensure that
the project includes all the work required, and only the work required, to complete the project
successfully.” All changes to project scope should be documented, controlled, and monitored
against the scope baseline. The project scope provides a common understanding to all project
stakeholders of what is expected. Documenting and monitoring changes to the scope help ensure
that all stakeholders understand the new project parameters. If scope is not properly managed,
activities may be performed that do not support the overall project objective.

        Project Schedule

        FIMS does not have a feature or space to sufficiently document the project schedule or
monitor the schedule to evaluate variances from the planned baseline. During its review of 15
selected projects, Kearney noted that the duration of the project as a whole was not documented
for four of the projects reviewed, and the timeframe needed to complete individual project
activities was not documented for any of the 15 projects.


12
  A Guide to the Project Management Body of Knowledge (PMBOK® Guide), 4th ed., Project Management Institute,
2008.

                                                20
                                           UNCLASSIFIED
                                        UNCLASSIFIED


        PMBOK states: “Project Time Management includes the processes required to manage
timely completion of the project.” Controlling the project schedule is the process of monitoring
the status of the project to update project progress. Changes in project schedules may impact
other project elements, such as project costs. In addition, if timelines are not properly managed,
the project may be delayed, increasing the risk that the political environment that facilitated the
project will change, and NDF may not be able to complete the project.

       Project Costs

        The funding for the project as a whole is documented in FIMS; however, FIMS does not
enable PMs to sufficiently document project costs or monitor changes in costs. Within each
project, various activities must be accomplished to achieve the project objective. Kearney found
that total project funding was not allocated to the various project activities in FIMS. Although
NDF records obligations, including contracts, in FIMS, the obligations do not align to the
individual project activities.

        PMBOK states: “Project Cost Management includes the processes involved in
estimating, budgeting, and controlling costs so that the project can be completed within the
approved budget.” As with project scope and schedule, project costs may change. For example,
if additional project activities are incorporated into the project, project costs may increase.
Changes to project costs should be documented, controlled, and monitored against the project
cost baseline. If project cost increases are not closely monitored, there may not be sufficient
funds available to complete the project. If project costs decrease, there may be funds available
that could be used for other purposes but are not because their availability is not known.

       Project Quality

       FIMS does not have the capability to assist PMs to substantiate that project activities are
performed in compliance with established specifications. As discussed above, FIMS does not
enable PMs to track progress against the project budget and schedule. In addition, FIMS does
not have other features that would be useful for tracking project deliverables, such as a feature to
remind PMs when project status reports are due from contractors. FIMS’ current structure
encourages PMs to assess the success of the project at the invoice level.

        PMBOK states: “Project Quality Management includes the processes and activities of
the performing organization that determine quality policies, objectives, and responsibilities so
that the project will satisfy the needs for which it was undertaken.” If project quality is not
managed, project funds could be wasted on ineffective or insufficient goods and services.

       Project Risk

       Although FIMS includes a feature to document project issues that occur after the project
has begun, it does not include a similar feature to document risk identification and the actions
necessary to remediate those risks during project planning before significant, negative
consequences occur. Kearney noted that PMs were aware of and documented project risks

                                             21
                                        UNCLASSIFIED
                                        UNCLASSIFIED


through e-mails to appropriate project stakeholders, such as the host country, donor countries,
and contractors. However, these risks were not documented in FIMS.

        PMBOK states: “Project Risk Management includes the processes of conducting risk
management planning, identification, analysis, response planning, and monitoring and control on
a project.” Risk is an uncertain event or condition that, if it occurs, has an effect on at least one
project objective, such as scope, schedule, cost, or quality. If project risks are not identified and
monitored, NDF may not be able to react quickly if the risks occur, and the success of the project
may be jeopardized.

        NDF recently added project management features to FIMS and plans to increase its
features over time. A project’s success is directly influenced by how effectively project
requirements are captured and managed. Because FIMS does not yet facilitate the project
management process and is lacking key features, PMs document many aspects of projects
outside of the system. There is a chance that a key project element will not be performed. To
meet NDF’s objective of using FIMS to assist with project management activities, FIMS should
include the capability to document and monitor the following project elements:

          activities required to accomplish the project objective,

          overall project timeline, 

          activities timeline, 

          activities cost,

          quality measures and milestones, and 

          risk identification and remediation. 


       Recommendation 8. OIG recommends that the Nonproliferation and Disarmament Fund
       (NDF) identify the key project management activities for NDF projects and develop a
       plan to modify Financial and Information Management System (FIMS) capabilities to
       support these activities. If NDF determines that it would not be cost effective to upgrade
       FIMS, NDF should develop and implement a formal process to perform and document
       these key project management activities outside of FIMS.

       Management Response: NDF concurred that it needed to “document key project,
       program, and portfolio management activities and to exercise due diligence in examining
       relevant workflows and documentation requirements and set cost effective and practical
       standards.” However, NDF noted that detailed project management “is carried out by the
       implementing entity, which may be a foreign government, contractor and/or international
       organization.”

       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that NDF has identified
       the key project management activities for which it is responsible and developed a plan to
       modify FIMS to support these activities or developed and implemented a process to
       perform and document these activities outside of FIMS.


                                             22
                                        UNCLASSIFIED
                                       UNCLASSIFIED



Document Maintenance and Retention Need Improvement

        NDF was not always able to readily locate and produce project management
documentation, including documentation to support the obligations and expenses related to each
project. Some documents were not in the Finance Office’s project file, and it often took days for
NDF to locate the correct document. In addition, PMs generally documented decision making,
project coordination, and discussion of project issues or changes in e-mails. In some cases,
e-mail communications were printed and maintained in the project file, but in other instances
they were not, and locating a specific e-mail was sometimes difficult and time consuming.
Further, some PMs documented, maintained, and printed every document they used, created, or
processed and placed it in the project file. However, other PMs only maintained the “official”
project documents, such as the contract, Statement of Work, MOU, and limited correspondence
regarding the important decisions that impacted their projects.

        The Office of Management and Budget’s Circular A-123, “Management’s Responsibility
for Internal Controls,” states that “management should have a clear, organized strategy with
well-defined documentation processes that contain an audit trail, verifiable results, and specify
document retention periods.” Although the NDF Project Management Guide instructs PMs and
the Finance Officer to maintain specific documents and dictates whether those documents should
be saved on the internal network or in FIMS, Kearney observed that these guidelines were not
followed.

        Without adequate documentation requirements, NDF cannot ensure that it maintains the
documentation to support project management decisions. In addition, although e-mails in NDF’s
internal e-mail accounts are maintained, e-mails in the Department’s e-mail accounts are not
maintained indefinitely, and important documentation could be lost. Further, projects are often
moved between PMs for workload capacity and specialization reasons. If project files are not
complete and documentation cannot be located, a PM taking over an existing project may not be
aware of the full history of a project, including issues that should be addressed and resolved.

       Recommendation 9. OIG recommends that the Nonproliferation and Disarmament Fund
       develop and implement procedures to ensure that documentation maintenance and
       retention policies are followed consistently.

       Management Response: NDF concurred with this recommendation, stating that it
       would build upon some existing guidelines to “determine appropriate policies and
       procedures.”

       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that NDF has developed
       and implemented procedures related to document maintenance and retention.

Project Closeout Controls Are Needed

        NDF did not have a control to ensure that projects are closed in a timely manner. NDF
recently implemented a project closeout process. This process requires a full reconciliation of
                                               23
                                       UNCLASSIFIED
                                        UNCLASSIFIED


the financial data in FIMS to the data in GFMS and the preparation of a final report. The
reconciliation is performed to help ensure that financial records in FIMS are correct prior to
closing out the project. The final report summarizes the project’s accomplishments and financial
history.

        At the time of this audit, there was a significant backlog of projects to be closed. The
project closeout process has proven to be time consuming and can take an unreasonable length of
time. Kearney noted that NDF had closed 103 projects since 2010. Additionally, NDF had
completed the financial reconciliation for another 43 projects. However, there were still projects,
both country-specific and administrative, inappropriately identified as “active” in FIMS. In fact,
one project was still an active project in FIMS even though the work has been completed and no
payments have been made since 2008.

        As long as a project is “active” in FIMS, the funds remain assigned to that project. When
projects are closed, the funds can be returned to NDF’s allotment for use on other
nonproliferation activities.

        Because NDF currently is working to close out the backlog of completed projects, no
formal recommendations are being made specifically related to NDF’s effort. However, it is
important for NDF to continue with its project closeout efforts. To improve the timeliness of
project closeouts, NDF should identify ways to perform its closeout procedures more efficiently.
Kearney agrees with the need to reconcile data in FIMS to the data in GFMS to ensure that the
information in FIMS is accurate and complete. However, Kearney noted that an inordinate
amount of time was spent during the reconciliation investigating small dollar differences. NDF
management could establish a reasonable dollar threshold below which the difference will not
be investigated.

       Recommendation 10. OIG recommends that the Nonproliferation and Disarmament
       Fund develop a standard timeframe for closing out projects and implement a policy to
       ensure standard timeframes for project closeouts are met or the reasons for delays
       documented.

       Management Response: NDF concurred with this recommendation, stating that it plans
       to “establish a policy to include a timeline to closeout NDF projects and return remaining
       funds to the NDF account.” NDF also noted that the report included administrative funds
       used for internal operations in the list of active projects and suggested that OIG modify
       the report to remove these projects. NDF provided OIG with a separate list of the
       administrative projects, which OIG did not include in Appendix D.

       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that NDF has developed
       and implemented a standard timeframe for project closeouts. OIG understands that
       Kearney included administrative projects in its overall count of projects in the report.
       However, because NDF included administrative activities in the list of projects that it
       provided to Kearney for testing purposes, OIG believes it is appropriate to include these

                                             24
                                        UNCLASSIFIED
                                       UNCLASSIFIED


       activities in the number of projects being performed by NDF. Kearney has noted in the
       report that the number of projects discussed included administrative projects.

Finding C. Data Integrity and Reporting Capabilities Need Improvement To
Produce Auditable Financial Reports
        Kearney found that FIMS contained accurate and complete information on the funds
received, including appropriations, donations, and the amounts approved for each project.
However, the integrity of other data in FIMS was often not sufficient to prepare accurate
financial reports for external users. Specifically, obligations and expenses were not always
accurately, completely, or timely recorded in FIMS. The discrepancies occurred primarily
because of the lack of clear policies and procedures for recording obligations and expenses in
FIMS. The discrepancies were not detected and corrected because of the lack of a formal,
periodic reconciliation process. Further, Kearney found that donated funds were not clearly
segregated by donor country in contractual documents and that FIMS reporting capabilities were
limited. Because of the inaccurate data in FIMS and the limitations of the current FIMS reports,
Kearney concluded that FIMS was unable to produce financial reports that could be successfully
audited.

        Kearney also found that, although NDF had implemented some application security
controls for FIMS, the controls were not adequate. Specifically, NDF did not have a
comprehensive application security plan in place, application changes were not adequately
reviewed, the system administrator had the ability to alter financial data, and NDF had not
formally approved or implemented the draft contingency plan it developed for FIMS. Without
adequate application level controls, unauthorized changes to FIMS could be migrated into
production and incorporated into the FIMS configuration baseline. Further, unauthorized
changes may alter the processing of financial data and compromise the integrity and reliability of
that data. As a result, data may be lost, and extended down time may be necessary to recover the
data.

Funds Received Were Accurately, Completely, and Timely Recorded in FIMS

        Kearney found that NDF accurately recorded in FIMS the funds received from
appropriations and donations and the amounts approved for each project. Appropriated funds are
recorded in GFMS and provided to NDF through advices of allotment. NDF records
appropriations in FIMS at the allotment level. Donated funds are recorded in GFMS by entering
a specific fund symbol and in FIMS by entering the applicable country. NDF records the amount
of funds approved by Congress for each project in FIMS by project number.

       To test the accuracy and completeness of the appropriations recorded in FIMS, Kearney
obtained the appropriation legislation for FYs 2009–2012 and identified the amount made
available to NDF for each of those fiscal years. Kearney compared the amounts in FIMS to the
amounts in the appropriation legislation and identified no differences.



                                            25
                                       UNCLASSIFIED
                                               UNCLASSIFIED

        To test the accuracy and completeness of the donations recorded in FIMS, Kearney
obtained a copy of the MOU for each donor country and documentation of the deposits of funds
received from each donor country in FY 2011. Kearney compared the donated amounts recorded
in FIMS to the amounts listed in the MOUs, as well as to the amounts deposited, and identified
no differences.

        To test the accuracy of the project funding recorded in FIMS, Kearney obtained the CNs
for the 15 selected projects. Kearney compared the project funds recorded in FIMS to the
amounts in the CNs for the 15 projects and identified no differences. To test the completeness of
the project funding recorded in FIMS, Kearney obtained a report containing all CNs since 2007
from the Bureau of Legislative Affairs Document Tracking Log System. Kearney identified all
NDF-related CNs, mapped each NDF project to the corresponding CN, and compared the project
funding in FIMS to the CN. Kearney identified no differences. Kearney also determined that
NDF recorded project funding in a timely manner by comparing the date the funding was
recorded in FIMS to the date of the CN for seven of 15 projects.13 Funding for all seven projects
was recorded within 15 days after the expiration of the deadline allowed for congressional
rejection of the CN.

Obligations and Expenses Were Not Always Accurately, Completely, or Timely Recorded
in FIMS

        Although funding was accurately, completely, and timely recorded, Kearney found that
obligations and expenses recorded in FIMS were not always accurately, completely, or timely
recorded. Specifically, obligation amounts in FIMS were not always supported, estimated
obligations recorded in FIMS were not updated with actual obligation information in a timely
manner, and some obligations in GFMS were not recorded in FIMS. Although expenses
recorded in FIMS were accurate, they were not recorded in a timely manner, and some expenses
were not recorded in FIMS at all.

        Obligations

           Kearney found that obligations recorded in FIMS were not always accurate, complete, or
timely. Obligations are definite commitments that create a legal liability of the Government for
payment. An agency should record an obligation “only when supported by documentary
evidence” of “a binding agreement between an agency and another person (including an
            14
agency).” An obligation should also be recorded, even in the absence of a binding agreement,
if it is likely that there will be future outlays, and there is a reasonable estimate of the amount.
NDF records obligation estimates in FIMS based upon procurement requests. NDF identifies
these obligations as estimates by using an indicator “flag” in FIMS. When NDF establishes


13
   This test was limited to seven of 15 selected projects because the remaining eight projects were funded prior to
implementation of the current version of FIMS. For these projects, FIMS shows the system implementation date as
the date funding was recorded and not when it was initially recorded in the previous version of FIMS.
14
   31 U.S.C. § 1501, “Documentary Evidence Requirement for Government Obligations.”

                                                    26
                                               UNCLASSIFIED
                                                    UNCLASSIFIED

formal obligations, such as a contract or purchase order, the actual amount of the obligations
should be entered and the estimate “flag” removed.
                                   15
        Kearney tested 140 obligations, totaling $138 million, recorded in FIMS to determine
the accuracy and timeliness of the obligation amounts. As detailed in Table 6, Kearney
identified 29 errors.

Table 6. Errors in Recording Obligations
                                                                            Gross Impact to     Net Impact to
                                                   Number of
     Finding                                                                   Obligation         Obligation
                                                   Obligations
                                                                            Balance in FIMS    Balance in FIMS
     The obligation recorded in FIMS
     was not supported by
                                                                    17              $647,000            $647,000
     documentation; therefore, the
     amount could not be verified.
     The obligation amount recorded
     in FIMS did not agree to the
                                                                      7              236,000             234,000
     amount in the obligating
     document.
     The obligation amount initially
     recorded in FIMS did not agree
     to the amount in the obligating                                  5            8,720,000                     0
     document. NDF eventually
                           16
     corrected the amount.
                                  Total                             29            $9,603,000            $881,000
Source: Prepared by Kearney based on the results of its tests of obligations.

       An additional nine obligations, each for less than $15,000, were recorded based on e-mail
communications without a formal obligating document. Although Kearney accepted the e-mails
as support for the amounts obligated, Kearney notes that NDF may want to develop a more
formal process regarding these low dollar obligations to ensure they are appropriately recorded.
                                                                     17
       Kearney tested the timeliness with which 70 obligations were recorded in FIMS and the
estimate “flag” was removed. Of 70 obligations, Kearney identified 52 obligations, totaling
$68.9 million, in which the estimate “flag” was removed between 16 and 803 days after the

15
   The planned sample size for testing was 180 obligations, totaling $133.6 million. However, the actual sample size
was less because the 180 items included deobligations, which were not substantively tested.
16
   Kearney noted that the estimated and actual amounts recorded for these obligations, which changed over the life
of the obligation, did not agree with the documentation supporting the obligations, and no reasonable explanation for
the discrepancies was provided. Although corrected by NDF prior to this audit, the discrepancies are indicative of a
weakness in the controls over recording obligations.
17
   This test was limited to 70 of 140 FIMS obligations tested because the other obligations were recorded prior to
implementation of the current version of FIMS. For these obligations, FIMS shows the system implementation date
as the date the obligations were recorded and not when the obligations were initially recorded in the previous
version of FIMS.

                                                         27
                                                    UNCLASSIFIED
                                            UNCLASSIFIED


actual obligation was executed. The average time between executing the obligation and
removing the “flag” for these 52 obligations was 163 days. Kearney also identified three
obligations, totaling $5.5 million, in which the estimate “flag” was either never used or was
removed before the actual obligation was executed.

        Kearney also identified instances in which the obligation amount in FIMS did not match
the obligation amount in GFMS. Kearney judgmentally selected 12 NDF ULOs in GFMS
totaling $131 million, which accounted for more than 90 percent of NDF’s ULO population at
the time of this audit. For these 12 obligations, Kearney reconciled the amounts recorded in
FIMS to the amounts recorded in GFMS. The amount in FIMS for three of 12 obligations did
not agree with the amount obligated according to GFMS. The difference for the three
obligations was $1.6 million.

        Expenses

         Kearney found that the expenses recorded in FIMS were accurate; however, some
expenses were not recorded, and recorded expenses were not documented in a timely manner.
An expense is an “outflow or other using up of resources,” the benefits from which “apply to an
entity's operations for the current accounting period, but do not extend to future periods.”18
From FIMS, Kearney selected a sample of 262 expense transactions, totaling $52 million, to test
for accuracy. Kearney compared the amount of the expense in FIMS to the invoice amount and
found that the 262 expenses were recorded accurately.
                                                            19
        Kearney tested the timeliness with which 115 expense transactions were recorded in
FIMS. Of 115 transactions, Kearney identified 45 transactions, totaling $16.7 million, in which
the expense was recorded more than 15 days after the invoice was approved for payment. For
these 45 transactions, the average time between the date the invoice was approved and the date
the expense was recorded in FIMS was 87 days. In one instance, the expense was not recorded
in FIMS until 371 days after the invoice was approved for payment. Kearney also identified
eight instances, totaling $2.2 million, in which expenses were recorded in FIMS prior to the
invoices being approved for payment. NDF’s Finance Officer enters expenses into FIMS. The
process of recording expenses in FIMS is manual, and it requires a significant amount of the
Finance Officer’s time. Kearney noted that NDF has three Finance Officer positions, but at the
time of this audit, one of the positions was vacant and one Finance Officer had been detailed to
another office since January 2009. The one current Finance Officer has other responsibilities,
and the entry of invoices is not always considered the highest priority.

       To test the completeness of the expense transactions recorded in FIMS, Kearney selected
45 expenses from GFMS and compared the amount reported in GFMS for each expense to the
amount in FIMS. Of 45 sampled transactions, 15 expenses, with a net impact of $537,000, were
18
   Statement of Federal Financial Accounting Standards No. 4, “Managerial Cost Accounting Concepts and
Standards for the Federal Government.”
19
   This test was limited to 115 of 262 FIMS expenses tested because the other expenses were recorded prior to
implementation of the current version of FIMS. For these expenses, FIMS shows the system implementation date as
the date the expense was recorded and not when it was initially recorded in the previous version of FIMS.

                                                 28
                                            UNCLASSIFIED
                                        UNCLASSIFIED


not recorded in FIMS. The majority of these expenses were for PSC salary payments, which
were made by another office in the Department. NDF is not aware of these payments when they
are made.

         The obligation and expense data in FIMS is used by NDF personnel on a daily basis.
According to the Government Accountability Office’s Standards for Internal Control in the
Federal Government, “transactions should be promptly recorded to maintain their relevance and
value to management in controlling operations and making decisions…. In addition, control
activities help to ensure that all transactions are completely and accurately recorded.” The errors
in obligations and expenses in FIMS occurred because NDF did not have sufficient policies or
procedures regarding the recording of obligations, particularly miscellaneous obligations, or
expenses.

        Further, these errors were not identified and corrected in a timely manner because NDF’s
process of comparing data in FIMS to GFMS is manual, not formalized, and not performed on a
timely basis. NDF’s goal is to work with the Department to develop a process to export data
from GFMS and import the data to FIMS. Until that is possible, NDF could improve its method
for reconciling FIMS to GFMS by developing a report in FIMS that shows the status of all
obligations and comparing the amount in FIMS to the Status of Funds report from GFMS’s Data
Warehouse. NDF could develop a tool or template in Excel to facilitate this comparison. For
certain obligations, the Excel template would need to link the FIMS obligation numbers to the
corresponding unique identifiers in GFMS.

        When errors, such as incorrect obligations and expenses, occur in FIMS and are not
corrected in a timely manner and when estimated obligations are not distinguished from actual
obligations, FIMS provides incorrect information to PMs and other users of FIMS. For example,
as of the beginning of FY 2012, GFMS showed that NDF had $72 million more in available
funds for obligations than was reported in FIMS.

       Recommendation 11. OIG recommends that the Nonproliferation and Disarmament
       Fund improve its policies and procedures for recording obligations and expenses in the
       Financial and Information Management System (FIMS) by developing, at a minimum:

               a) Clarification on the documentation required to record an obligation,
                  especially miscellaneous obligations.
               b) Instructions on the proper use of the estimate “flag.”
               c) A standard for an acceptable time between the approval of an expense
                  transaction and its entry into FIMS.

       Management Response: NDF concurred with this recommendation, stating that it
       would include a “checklist for obligation supporting documentation” in the Project
       Manager Users Guide. NDF also planned to “build a tool to compare GFMS and FIMS,
       when and if GFMS downloads are available.” Further, NDF planned to include a process
       for the “estimated flag” in its internal policies and enhance FIMS by developing
       “automated periodic reconciliation processes.”

                                             29
                                        UNCLASSIFIED
                                       UNCLASSIFIED


       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that NDF has developed
       and implemented improved policies and procedures for recording obligations and
       expenses in FIMS.

       Recommendation 12. OIG recommends that the Nonproliferation and Disarmament
       Fund develop and implement policies and procedures for reconciling financial data in the
       Financial and Information Management System to the financial data in the Global
       Financial Management System on a periodic basis, including requirements for
       documenting and reviewing the reconciliation.

       Management Response: NDF concurred with this recommendation, stating that it
       agrees that it “should improve the reconciliation process before the final project
       closeout.” However, NDF stated that because of staff limitations and lack of automated
       data from GFMS, the “reconciliation between GFMS and FIMS is a manual process
       subject to priorities of workload.” NDF stated that it will explore the possibility of
       enhancing FIMS to allow for “automated periodic reconciliation processes.”

       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that NDF has developed
       and implemented policies and procedures for reconciling the financial data in FIMS to
       GFMS.

Donated Funds Should Be More Clearly Identifiable in Contractual Documents

       In FY 2012, NDF received more than $5.9 million in donations from other countries to
execute an ongoing project in Libya. As a condition of receiving these funds, the United States
agreed to keep separate records and accounts for the funds donated. Kearney found that the
donated funds received were accounted for separately by donor in FIMS and GFMS. In addition,
NDF records obligations and expenses against the donated funds by country in FIMS, enabling
NDF to account for the funds received from each country.

        Although the funds, when received, are recorded separately in FIMS and GFMS, Kearney
found that three of four donor countries’ funds were included in the same CLIN under one
contract. Within each CLIN there is a separate requisition funded by a specific donation
identifiable by the allotment code, and the contractor is aware of this breakout. However, the
requisition is not easily identifiable in GFMS, and NDF must rely upon the contractor to allocate
funds to the proper donor country. This occurred because the contract for the ongoing project
using donated funds was negotiated by A/LM/AQM based upon the request of another office
within the Department. If NDF had been responsible for initiating the procurement request, it
could have ensured that a better tracking mechanism for donated funds was included in the
contract.

       Recommendation 13. OIG recommends that the Nonproliferation and Disarmament
       Fund (NDF) develop policies regarding the responsibility of NDF in the contracting
       process when donated funds are used.
                                             30
                                     UNCLASSIFIED
                                        UNCLASSIFIED




       Management Response: NDF concurred with this recommendation, stating that it “only
       receives donor funds on a project-specific basis, and each project will have unique
       contractual requirements.” Therefore, NDF will develop appropriate modalities on a
       “case-by-case basis.” In addition, NDF stated that it would add procedures to the “FIMS
       Quick Reference Guide.” Further, NDF stated that donated fund “reports are being
       enhanced and developed in FIMS to include funds, obligations, expenditures, and
       available balances from the projects.”

       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that NDF has developed
       policies related to identifying donated funds in the contracting process.

FIMS Reporting Capabilities are Limited

        Kearney found that the existing reporting function within FIMS did not have the
capability to produce useful and timely reports for donor countries. The majority of the standard
FIMS reports are financial reports that provide a project’s obligations, expenses, and ULOs.
Appendix C provides a sample of the standard reports that FIMS produces and the information
included in each report. Kearney concluded that the standard reports generated by FIMS were
insufficient to fulfill donor requirements for reliable and complete financial reports. Specifically,
FIMS does not currently have the ability to:

          Produce reports as of a historic point in time or for a particular period of time.
          Track changes to or the deletion of expense transactions or produce a report
           showing those changes.
          Show the amount of an obligation in the Obligation History Report when an
           obligation is created.
          Distinguish between estimated and actual obligation amounts in reports.
          Produce reports showing the project’s progress or performance.

        The MOUs with the donor countries all require regular financial reporting on the use of
the funds. For example, the MOU between the United States and one donor country requires the
Department to provide “monthly reports on the progress of the … funded projects and
activities…. The reports are to contain an overview of the projects and activities and a financial
accounting showing how the funds provided … have been allocated and used.”

        When FIMS was designed in 2008, NDF anticipated using the system primarily for
internal monitoring of its budgetary resources. Operational and regulatory requirements have
expanded since the system was designed, but FIMS had not been fully updated to meet the
increased requirements, including the requirements for external reporting and independent audits.
Kearney noted that NDF had the ability to meet donor country reporting requirements by
manually compiling the information from the information contained in GFMS, FIMS, and bureau
cuff records.


                                             31
                                        UNCLASSIFIED
                                        UNCLASSIFIED


       Recommendation 14. OIG recommends that the Nonproliferation and Disarmament
       Fund (NDF) identify end-users reporting needs and modify the Financial and Information
       Management System (FIMS) to meet the reporting needs identified. If NDF determines
       that it would not be cost-effective to modify FIMS to address certain end-user reporting
       needs, NDF should document the rationale for making this decision and develop a formal
       process for manually preparing the required reports.

       Management Response: NDF concurred with this recommendation, stating that it
       agreed to “develop a plan to identify end-user reporting needs.” However, NDF stated
       that it would be able to use the current FIMS functionality to address the recommendation
       and that “modifying FIMS to meet the reporting needs” may take more time.

       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that NDF has determined
       end-user reporting needs and has implemented processes to meet those needs.

Inaccurate Data and Limitations of FIMS Reports Make Successful Audits of Financial
Reports From FIMS Unlikely

        Because of the inaccurate data in FIMS and the limitations of the FIMS reports, Kearney
concluded that FIMS is currently unable to produce financial reports that could be successfully
audited. NDF’s ultimate goal is to be able to produce auditable financial reports for donors or
other interested parties using data in FIMS.

        Because the Department does not adequately segregate donations by country in its
contracting documents, there is limited visibility over the status of the funds and an increased
risk that the contractor performing the project for which the funds were donated may not
sufficiently report cost by donation. In addition, because some of the data in FIMS is inaccurate,
NDF may not have an accurate picture of the financial position of the fund, and any decisions
made using the FIMS data may be flawed.

        In order to provide financial reports to donor countries, NDF must manually produce the
reports using data from different sources, which increases the likelihood of errors. If NDF were
unable to comply with the expectations of donor countries to provide accurate and timely
financial reports, countries may be unwilling in the future to provide additional funds to carry out
other nonproliferation projects.

FIMS Application Level Controls Need Improvement

        Kearney found that NDF had implemented some controls to protect the data stored in
FIMS. Specifically, NDF implemented a process to ensure that sensitive information is not
entered in FIMS, established user access and segregation of duties controls, maintained an audit
log to record changes made to FIMS, and developed a draft contingency plan. However, NDF
had not implemented certain application level controls. Specifically, NDF did not have a
comprehensive application security plan, the system administrator had the ability to alter

                                             32
                                        UNCLASSIFIED
                                              UNCLASSIFIED


financial data, controls over changes made to the application were not sufficient, and the draft
contingency plan was not formally approved or implemented.

        NDF has mitigated the risks associated with putting Department financial and project
information online by ensuring that no sensitive data is entered into FIMS. NDF does not
include classified, sensitive but unclassified, proprietary, or personally identifiable information
in FIMS. NDF had assigned an IT support specialist to review documents to verify that the
documents are not sensitive or classified before the documents are scanned into FIMS.
However, NDF did not have a comprehensive application security plan in place. According to
                                                      20
the National Institute of Standards and Technology (NIST), the purpose of the system security
plan is to “provide an overview of the security requirements of the system and describe the
controls in place or planned for meeting those requirements. The system security plan also
delineates responsibilities and expected behavior of all individuals who access the system.”

        NDF had implemented user access and segregation of duties controls and had
documented the user roles and profiles for staff with FIMS access. User roles and profiles
determine the user’s ability to read, create, edit, delete, view, and modify information in FIMS.
Kearney reviewed all of the user roles and profiles, including those for the PMs and the Finance
Officer, and determined that the access rights associated with most user roles and profiles were
appropriate. However, Kearney found that the system administrator had the ability to alter
                                                21
financial data. According to NIST standards, an organization should employ “the concept of
least privilege, allowing only authorized accesses for users (and processes acting on behalf of
users) which are necessary to accomplish assigned tasks in accordance with organizational
missions and business functions.”

        NDF had established a Requirements Management Team to represent the interests of
PMs and the Comptroller when changes to FIMS are being considered. The Requirements
Management Team reviews FIMS change requests, makes recommendations for approval by the
NDF Director, and communicates decisions to the affected groups and individuals. In addition,
FIMS uses an audit log in which changes to the application are recorded. For example, changes
to the access rights of a user profile and the creation of a field or addition of a new user were
logged. The audit log was maintained for 6 months by Salesforce. Although the audit log
recorded changes to the application, the changes were not reviewed by an individual without
change authority to ensure that only the changes reviewed by the Requirements Management
Team and approved by the NDF Director were made. NIST standards22 require agencies to
manage configuration changes to the information system using an organizational process (e.g., a
chartered Configuration Control Board). Configuration change control involves “the systematic
proposal, justification, implementation, test/evaluation, review, and disposition of changes to the
system, including upgrades and modifications.” NDF should consider requiring all application


20
   NIST Special Publication 800-18, rev. 1, “Guide for Developing Security Plans for Federal Information Systems.”
21
   NIST Special Publication 800-53, rev. 3, “Recommended Security Controls for Federal Information Systems and
Organizations.”
22
   Ibid.

                                                   33
                                              UNCLASSIFIED
                                             UNCLASSIFIED


changes to be reviewed by an individual without change authority to ensure that the changes
were executed in accordance with the NDF review and approval process.

        NDF had developed a draft contingency plan, but the plan had never been formally
approved or implemented. NIST standards23 require organizations to develop, disseminate, and
periodically review “a formal, documented, contingency planning policy that addresses purpose,
scope, roles, responsibilities, management commitment, coordination among organizational
entities, and compliance” and “formal, documented procedures to facilitate the implementation
of the contingency planning policy and associated contingency planning controls.”

       Without adequate application level controls, unauthorized changes to FIMS could be
migrated into production and incorporated into the FIMS configuration baseline, which may alter
the processing of financial data and compromise the integrity and reliability of the data. In the
event of a power outage because of an external environmental factor, such as a natural disaster, a
system failure may occur. Without a formal, approved contingency plan, data may be lost, and
recovery efforts may result in extended down time.

             Recommendation 15. OIG recommends that the Nonproliferation and Disarmament
             Fund prepare a comprehensive system security plan for the Financial and Information
             Management System.

             Management Response: NDF concurred with this recommendation, stating that it was
             “working on the accreditation and certification process.” In addition, NDF stated that it
             is modifying the current contract for FIMS services “to add funding for the system
             security plan.”

             OIG Reply: OIG considers the recommendation resolved. The recommendation can be
             closed when OIG reviews and accepts documentation showing that NDF has developed a
             comprehensive system security plan.

             Recommendation 16. OIG recommends that the Nonproliferation and Disarmament
             Fund review the permissions of all Financial and Information Management System users
             and verify that their access privileges are consistent with their assigned job functions and
             responsibilities.

             Management Response: NDF concurred with this recommendation.

             OIG Reply: OIG considers the recommendation resolved. The recommendation can be
             closed when OIG reviews and accepts documentation showing that NDF has reviewed
             and verified the access privileges of FIMS users.




23
     Ibid.

                                                  34
                                             UNCLASSIFIED
                               UNCLASSIFIED


Recommendation 17. OIG recommends that the Nonproliferation and Disarmament
Fund assess its current change control process for the Financial and Information
Management System and determine whether additional reviews are required.

Management Response: NDF concurred with this recommendation.

OIG Reply: OIG considers the recommendation resolved. The recommendation can be
closed when OIG reviews and accepts documentation showing that NDF has assessed its
current change control process.

Recommendation 18: OIG recommends that the Nonproliferation and Disarmament
Fund finalize and implement its contingency plan for the Financial and Information
Management System.

Management Response: NDF concurred with this recommendation, stating that its
current information technology contract “includes a provision for a contingency plan in
FIMS.” NDF stated that the “Disaster Recovery and Data Backup services,” which are
provided by SalesForce, have “been shown to satisfy NIST standards in regards to the
prevention of loss of data.”

OIG Reply: OIG considers the recommendation resolved. The recommendation can be
closed when OIG reviews and accepts documentation showing that NDF has developed a
contingency plan for FIMS.




                                    35
                               UNCLASSIFIED
                                       UNCLASSIFIED


                                 List of Recommendations
Recommendation 1. OIG recommends that the Nonproliferation and Disarmament Fund
develop and implement a standardized procedure to help ensure compliance with contract
initiation and modification documentation and approval requirements.

Recommendation 2. OIG recommends that the Nonproliferation and Disarmament Fund
improve the invoice approval process to ensure that project managers receive and maintain the
appropriate documentation to support their certification of the receipt of goods or services.

Recommendation 3. OIG recommends that the Nonproliferation and Disarmament Fund
develop an internal process to review unliquidated obligations on a periodic basis and to validate
the quarterly list of unliquidated obligations provided by the Bureau of the Comptroller and
Global Financial Services in a timely manner.

Recommendation 4. OIG recommends that the Nonproliferation and Disarmament Fund
develop and implement a formal process to close out contracts in a timely manner.

Recommendation 5. OIG recommends that the Nonproliferation and Disarmament Fund
develop a process to formally document the projects for which the “notwithstanding authority” is
used, including when it is invoked to override portions of the Federal Acquisition Regulation.

Recommendation 6. OIG recommends that the Nonproliferation and Disarmament Fund
identify key project management controls and implement a policy to require compliance with
these key controls.

Recommendation 7. OIG recommends that the Nonproliferation and Disarmament Fund
develop and implement policies regarding the use of the Financial and Information Management
System (FIMS) for project management and, to the extent possible, add controls to FIMS that
require the completion of key fields.

Recommendation 8. OIG recommends that the Nonproliferation and Disarmament Fund (NDF)
identify the key project management activities for NDF projects and develop a plan to modify
Financial and Information Management System (FIMS) capabilities to support these activities.
If NDF determines that it would not be cost effective to upgrade FIMS, NDF should develop and
implement a formal process to perform and document these key project management activities
outside of FIMS.

Recommendation 9. OIG recommends that the Nonproliferation and Disarmament Fund
develop and implement procedures to ensure that documentation maintenance and retention
policies are followed consistently.

Recommendation 10. OIG recommends that the Nonproliferation and Disarmament Fund
develop a standard timeframe for closing out projects and implement a policy to ensure standard
timeframes for project closeouts are met or the reasons for delays documented.

                                            36
                                       UNCLASSIFIED
                                         UNCLASSIFIED


Recommendation 11. OIG recommends that the Nonproliferation and Disarmament Fund
improve its policies and procedures for recording obligations and expenses in the Financial and
Information Management System (FIMS) by developing, at a minimum:

       a) Clarification on the documentation required to record an obligation, especially
          miscellaneous obligations.
       b) Instructions on the proper use of the estimate “flag.”
       c) A standard for an acceptable time between the approval of an expense transaction and
          its entry into FIMS.

Recommendation 12. OIG recommends that the Nonproliferation and Disarmament Fund
develop and implement policies and procedures for reconciling financial data in the Financial
and Information Management System to the financial data in the Global Financial Management
System on a periodic basis, including requirements for documenting and reviewing the
reconciliation.

Recommendation 13. OIG recommends that the Nonproliferation and Disarmament Fund
(NDF) develop policies regarding the responsibility of NDF in the contracting process when
donated funds are used.

Recommendation 14. OIG recommends that the Nonproliferation and Disarmament Fund
(NDF) identify end-users reporting needs and modify the Financial and Information
Management System (FIMS) to meet the reporting needs identified. If NDF determines that it
would not be cost-effective to modify FIMS to address certain end-user reporting needs, NDF
should document the rationale for making this decision and develop a formal process for
manually preparing the required reports.

Recommendation 15. OIG recommends that the Nonproliferation and Disarmament Fund
prepare a comprehensive system security plan for the Financial and Information Management
System.

Recommendation 16. OIG recommends that the Nonproliferation and Disarmament Fund
review the permissions of all Financial and Information Management System users and verify
that their access privileges are consistent with their assigned job functions and responsibilities.

Recommendation 17. OIG recommends that the Nonproliferation and Disarmament Fund
assess its current change control process for the Financial and Information Management System
and determine whether additional reviews are required.

Recommendation 18. OIG recommends that the Nonproliferation and Disarmament Fund
finalize and implement its contingency plan for the Financial and Information Management
System.




                                              37
                                         UNCLASSIFIED
                                        UNCLASSIFIED



                                                                                      Appendix A

                                    Scope and Methodology

       In February 2012, the Nonproliferation and Disarmament Fund (NDF) requested a
performance audit to assess the design and effectiveness of the contracting and project
management control environments and to evaluate the integrity of the data in its Financial and
Information Management System (FIMS) and its ability to produce auditable reports. An
external audit firm, Kearney & Company, P.C. (Kearney), acting on behalf of the Office of
Inspector General, performed this audit.

       Kearney conducted this performance audit from March–July 2012 in Washington, DC.
Kearney planned and performed the audit in accordance with performance audit requirements in
the Government Accountability Office’s Government Auditing Standards: 2011 Revision.
These standards required Kearney to obtain sufficient, appropriate evidence to provide a
reasonable basis for findings and conclusions. The sufficiency and appropriateness of evidence
needed and tests of evidence related directly to the objectives and scope of the audit. Kearney
believes that the evidence obtained provides a reasonable basis for its findings and conclusions
based on the audit objectives.

        To obtain background information for this audit, Kearney researched and reviewed the
Federal Acquisition Regulation, the Department of State Acquisition Regulation, and Federal
appropriations law. Kearney reviewed industry standards relating to project management, such
as those developed by the Project Management Institute in the Project Management Body of
Knowledge. Kearney also reviewed standards for internal control, as it relates to information
systems, as documented by the National Institute of Standards and Technology (NIST).

        Kearney met with NDF personnel and contractors to obtain an understanding of NDF’s
processes related to contracting and project management and to obtain an understanding of the
current use of FIMS. Kearney also met with personnel from Acumen, the vendor responsible for
designing and maintaining FIMS, to obtain an understanding of the configuration of the system.
Kearney reviewed the Memorandums of Understanding between the United States and the
various countries that have donated funds to support the implementation of NDF’s project in
Libya. Meetings were held with individuals outside NDF to assist Kearney in identifying the
risks related to NDF’s project management and contracting processes.

        Based upon its preliminary work, Kearney divided the contracting process review into
five subprocesses: contract initiation, contract modification, invoice approval, contract closeout,
and unliquidated obligation (ULO) monitoring. Kearney identified the risks within each of these
subprocesses and the controls in place to address those risks. Findings were noted when
identified risks were not mitigated by controls. To assess control design, Kearney reviewed
documentation for all the contracts within one project. Additionally, Kearney reviewed all
ULOs without activity since July 2011 and inquired as to their validity to assess the design of the
ULO monitoring controls. For all controls found to be designed effectively, Kearney developed
procedures to test the operation of these controls. (See the Detailed Sampling Methodology
section in this appendix for additional information on sample selection.) Controls that were
                                                 38
                                         UNCLASSIFIED
                                        UNCLASSIFIED


found to be ineffectively designed, such as the ULO monitoring control, were not tested and
findings were noted.

        Kearney noted during its preliminary work that formal control processes regarding
project management had not been mandated by the NDF. Kearney sought to determine whether
NDF’s informal project management process addressed all key aspects of project management as
articulated by industry standards. Therefore, Kearney planned procedures to review
documentation to determine whether these key aspects were met. Specifically, Kearney assessed
the documentation of the scope, budget, and timeline of the project; the support for and
documentation of changes to the scope, budget, and timeline of the project; the identification and
tracking of project issues; the identification of project risks; and the monitoring of the project.
Kearney obtained three listings of projects (active, closed, and closing) from FIMS as of April
24, 2012. The active projects were considered to be most relevant to the objectives of the audit.
Based upon planning discussions, Kearney learned that certain high-profile projects were in the
closed or closing status. Therefore, Kearney included these projects when selecting samples for
control testing. (See the Detailed Sampling Methodology section in this appendix for additional
information on sample selection.)

        Based upon its preliminary work, Kearney determined the key data fields in FIMS to
address the audit objectives. Specifically, Kearney concluded that overall funding
(Appropriations and Donations), project funding (congressional notifications), obligations, and
expenses were key data fields for the audit. Kearney performed procedures to determine the
accuracy and completeness of the data recorded in FIMS. For appropriations, the amounts
recorded since 2009 were traced and agreed to the appropriation legislation. For donations, the
current balance was agreed to wire transfer documentation. The completeness of new project
funding was tested by tracing all projects begun since 2007 to FIMS. For the other fields,
Kearney validated the amounts by performing substantive tests. When possible, control samples
were leveraged for these procedures; otherwise, new samples were selected from either FIMS or
the Department’s Global Financial Management System (GFMS). (See the Detailed Sampling
Methodology section in this appendix for additional information on sample selection.) Kearney
also reviewed the reporting capabilities in FIMS and compared them to internal and external end-
user needs.

       In order to draw conclusions regarding data integrity and reporting capabilities, it was
necessary to determine whether the information technology control environment was sufficient.
Kearney identified the applicable aspects of NIST and performed procedures to assess the
controls.

Use of Computer-Processed Data

        The audit team used computer-processed data from the Department during this audit.
Kearney obtained listings of projects from FIMS. Kearney selected a sample of projects and
tested the project funding amounts reported in FIMS. For each project Kearney obtained a
listing of the obligations and related expenses. Kearney tested these fields during fieldwork.
Issues identified are detailed in the Audit Results section, Finding C. Additionally, Kearney
obtained FY 2011 expense information from GFMS and a listing of ULOs from the GFMS
                                                 39
                                         UNCLASSIFIED
                                              UNCLASSIFIED


reporting tool Data Warehouse. The Department has controls in place to ensure that the
expenses recorded in GFMS are accurate and complete. Kearney is comfortable using GFMS to
obtain a population of transactions for sampling. Kearney has performed procedures to verify
that the listing of ULOs from the GFMS Data Warehouse as part of the FY 2012 Financial
Statement audit and has concluded that the listing is sufficiently reliable for sample selection
purposes.

Work Related to Internal Controls

        Kearney performed steps to assess the adequacy of internal controls related to the areas
audited. Specifically, Kearney gained an understanding of and tested the controls over contract
management, project management, and the integrity of data in FIMS. Work performed on
internal controls during the audit is detailed in the Audit Results section of the report.

Detailed Sampling Methodology

       The sampling objectives were to determine

       	   whether the controls identified by Kearney as effectively designed for contract
            initiation, contract modification, vendor invoice approval, travel expense approval,
            and contract closeout were functioning as designed;
           whether NDF’s informal project management process addressed key aspects of
            project management as articulated by industry standards;
           the accuracy of the project funding, obligation, and expense data recorded in FIMS;
            and
           the completeness of the obligation and expense data recorded in FIMS.

       Identification of Universes

       Several universes (or populations) were utilized to aid in determining samples for testing.
However, the starting point from which most of the sampling and concomitant testing emanated
from was the universe of NDF projects, which are categorized as active, closing, or closed in
Table 1.

            Table 1. Financial and Information Management System Project
            Universe
                                                                           Dollar Value of
                            Status                    Number of Projects
                                                                              Projects
                            Active                            46                $322,716,955
                            Closing                           43                 104,669,996
                            Closed                            103                107,636,759
                             Total                            192               $535,023,710
            Source: Prepared by Kearney based on FIMS data.




                                                   40
                                              UNCLASSIFIED
                                              UNCLASSIFIED

        The FIMS universe of obligation and expense transactions was not readily available for
control and accuracy testing. However, Kearney was able to obtain a listing of all obligation and
expense transactions for the selected projects to facilitate sample selection and testing.

       To obtain the universe of NDF’s current ULOs for completeness testing, Kearney
obtained the ULO Database as of March 31, 2012, from the GFMS Data Warehouse. The
Database included all ULOs across the Department. Therefore, to obtain the NDF universe,
Kearney identified all ULOs recorded for NDF.1 Kearney summarized the ULOs by obligation
number and established date. Summarized in this manner, there were 98 NDF ULOs as of
March 31, 2012, totaling approximately $144 million, as shown in Table 2.

              Table 2. Global Financial Management System Universe of
              Unliquidated Obligations
                 Count            Obligated                     Spent              Available
                     98            $143,454,609                 $73,695,867          $69,758,742
              Source: Prepared by Kearney based on GFMS data.

        To obtain the universe of expense transactions recorded in GFMS for completeness
testing, Kearney obtained the GFMS Detail Extraction Report from the GFMS Data Warehouse
as of June 5, 2012. The detail covered the period from October 1, 2011, to April 30, 2012.
There were 623 expense transactions, totaling approximately $70 million in gross expenses,
related to NDF, as shown in Table 3.

                 Table 3. Global Financial Management System Universe of
                 Expense Transactions
                                              Gross Impact                 Net Impact
                         Count
                                              to Expenses2                 to Expenses
                          623                  $70,361,665                 $20,702,397
                 Source: Prepared by Kearney based on GFMS data.


        Selection of Samples for Testing

       Kearney predominately used a nonstatistical sampling method known as judgment
sampling throughout this audit, and this included selecting the projects for review from the
primary universe utilized in this audit. Because this method uses discretionary criteria to effect
sample selection, the audit team was able to use information from its preliminary work to aid in
making informed selections for testing.



1 The treasury symbols 1911_X1075.0 and 1911X1071.0 are unique to the NDF. Therefore, these were used to

isolate the population.

2 The gross impact to expenses shows the absolute value of the transactions recorded. Therefore, increases and 

decreases are both treated the same when calculating this amount. When calculating the net impact, increases are 

offset by decreases recorded. 


                                                   41
                                              UNCLASSIFIED
                                            UNCLASSIFIED

        In selecting the projects for testing, Kearney focused on active projects with the largest
dollar value. In addition, Kearney targeted recently closed projects and one project currently in
the process of being closed out. As shown in Table 4, Kearney selected 15 projects for testing or
about 8 percent of 192 total projects, which encompassed approximately 36 percent of the total
dollar value of all NDF projects.

                  Table 4. Financial and Information Management System Projects
                  Selected for Testing

                    Project Number              Status in FIMS       Total Funding

                         NDF-236                      Closed                  $234,205
                         NDF-240                      Closed                   950,000
                         NDF-253                      Closed                   554,000
                         NDF-256                      Closed                 1,000,000
                         NDF-263                     Closing                25,000,000
                         NDF-270                      Closed                   179,330
                         NDF-272                      Active                20,000,000
                         NDF-273                      Active                10,000,000
                         NDF-274                      Active                25,000,000
                         NDF-285                      Active                12,625,000
                         NDF-288                      Active                26,000,000
                         NDF-292                      Active                17,000,000
                         NDF-294                      Active                16,000,000
                         NDF-295                      Active                34,300,000
                         NDF-915                      Active                 2,500,000
                           Total                                          $191,342,535
                  Source: Prepared by Kearney based on FIMS data.


        After selecting a sample of projects, Kearney conducted various tests to accomplish the
sampling objective. Areas of testing included the project management process; the accuracy of
project funding; controls over contract initiation, modification, and closeout; the accuracy of
obligation transactions; controls over vendor invoice and travel expense approval; and the
accuracy of expense transactions. The testing of the project management process and the
accuracy of project funding are at the project level; therefore, additional procedures were not
necessary to identify the transactions for testing.

         For each of the 15 selected projects, Kearney first identified the project status in FIMS
(i.e., active, closing, and closed) and the associated number of contract initiations, modifications
and closeouts. For all active projects, contract initiations, modifications, and closeouts were
                                                 42
                                            UNCLASSIFIED
                                                  UNCLASSIFIED


reviewed if applicable. However, Kearney excluded the contract initiations and modifications
related to closing and closed projects because NDF did not maintain the presolicitation files
required for initiation and modification testing for these projects. Also, Kearney noted that
contracts within closing and closed projects were executed prior to the formalization of the NDF
contracting controls. Table 5 provides a summary of the transactions identified for tests of
initiation, modification, and closeout controls. All transactions that were identified were tested.

        Table 5. Financial and Information Management System Contract Transactions
        for the Sampled Projects

            Project          Status in         Contract            Contract
                                                                                          Contract Closeouts
            Number            FIMS            Initiations         Modifications


           NDF-236             Closed               *                     *                           1
           NDF-240             Closed               *                     *                           2
           NDF-253             Closed               *                     *                           0
           NDF-256             Closed               *                     *                           2
           NDF-263            Closing               *                     *                           4
           NDF-270             Closed               *                     *                           1
           NDF-272             Active               6                     5                           0
           NDF-273             Active               5                     2                           3
           NDF-274             Active               1                     3                           1
           NDF-285             Active               0                     0                           0
           NDF-288             Active               0                     0                           0
           NDF-292             Active               0                     1                           0
           NDF-294             Active               0                     0                           0
           NDF-295             Active               6                     2                           0
           NDF-915             Active               6                     4                           0
                      †
            Various             N/A                 4                   N/A                         N/A
              Total                                 28                   17                          14
        Source: Prepared by Kearney based on FIMS data and review of documentation supporting transactions.
        *This symbol denotes that Kearney did not review contract initiations and modifications for closing and closed
        projects; NDF did not maintain the files required for this testing.
        †
          In addition to the projects identified in Table 5, for each contract modification identified within the population,
        Kearney ensured that the initial contract was also tested. In certain instances the initial contract was recorded under a
        different project number. When this occurred, Kearney added the contract to the list of items for testing.




                                                       43
                                                  UNCLASSIFIED
                                              UNCLASSIFIED

        To test the accuracy of obligations in FIMS, Kearney obtained all the nontravel
obligations recorded in FIMS3 for each of the 15 selected projects, as shown in Table 6. For
each obligation, Kearney obtained supporting documentation and determined whether the
amount was accurately recorded in FIMS.

          Table 6. Financial and Information Management System NonTravel Obligations
          for the Sampled Projects
                 Project Number              Number of Obligations                 Amount
                     NDF-236                                 5                         $215,523.31
                     NDF-240                                11                          899,242.82
                     NDF-253                                 2                          514,000.00
                     NDF-256                                 7                          899,300.00
                     NDF-263                                11                       19,366,315.59
                     NDF-270                                 3                         $167,930.00
                     NDF-272                                35                       21,617,303.77
                     NDF-273                                20                        9,584,950.41
                     NDF-274                                 7                        1,062,107.87
                     NDF-285                                 1                       12,625,000.00
                     NDF-288                                 2                       25,500,000.00
                     NDF-292                                 2                        3,164,376.35
                     NDF-294                                 1                       16,000,000.00
                     NDF-295                                15                       24,757,262.47
                     NDF-915                                18                        1,680,849.64
                       Total                                140                   $138,054,162.23
          Source: Prepared by Kearney based on FIMS data.


        To test controls related to vendor invoices and travel expenses and the accuracy of
expense transactions in FIMS, Kearney divided the non-PSC expense transactions4 for each
project selected between vendor invoices and travel expenses, as shown in Table 7. For each
tested vendor invoice transaction, Kearney obtained supporting documentation for the
effectiveness of the expense approval controls. For each tested travel expense transaction,
Kearney reviewed supporting documentation to verify the travel payment was properly

3 Kearney excluded travel obligations from this accuracy testing; the accuracy of these obligations was covered
through completeness procedures. Kearney also excluded deobligations because it was not considered necessary to
test the accuracy of these transactions.
4 Kearney excluded PSC expense transactions from testing because these payments are not processed by NDF;
therefore, they are not subject to NDF’s control environment. Moreover, NDF would not have the supporting
documentation required to substantiate the accuracy of the payments.

                                                   44
                                              UNCLASSIFIED
                                                  UNCLASSIFIED


approved. Both vendor invoice and travel transactions were tested to ensure the amount
recorded in FIMS matched supporting documentation. Kearney tested all the non-PSC expense
transactions for all 15 of the selected projects with the exception of projects NDF-272 and
NDF-273. Because of the extensive volume of transactions for these two projects, Kearney
randomly sampled instead. Specifically, Kearney sampled and tested 102 transactions, totaling
$2,903,292, of 373 transactions, totaling $14,638,238, for NDF-272 and 18 transactions, totaling
$4,667,255, of 75 transactions, totaling $4,426,370, for NDF-273.

 Table 7. Financial and Information Management System Non-Personal Services
 Contractor Expense Transactions for the Sampled Projects
                                            Non-PSC Expense Transactions Tested

   Project             Vendor Invoices                   Travel Expenses                 Total Tested
   Number
                 Number of                             Number of                 Number of
                                     Amount                          Amount                       Amount
                Transactions                          Transactions              Transactions

  NDF-236             15               $215,023            5           $9,184       20              $224,207
  NDF-240             15                886,807            5            7,381       20                  894,188
  NDF-253              2                220,818            0               0         2                  220,818
  NDF-256             10                805,039            9           24,270       19                  829,309
  NDF-263             14             19,366,316            0               0        14            19,366,316
  NDF-270              7                167,440            0               0         7                  167,440
  NDF-272             50              2,814,605           52           88,687       102            2,903,292
  NDF-273              5              4,652,531           13           14,724       18             4,667,255
  NDF-274              6                591,349            0               0         6                  591,349
  NDF-285              1             12,625,000            0               0         1            12,625,000
  NDF-288              1                500,000            0               0         1                  500,000
  NDF-292              1              3,000,000            0               0         1             3,000,000
  NDF-294              0                          0        0               0         0                       0
  NDF-295              5              5,744,122           19           25,795       24             5,769,917
  NDF-915             27                341,255           103           9,184       27                  341,255
    Total             159           $51,930,304           103        $170,041       262          $52,100,346
Source: Prepared by Kearney based on FIMS data.

       To test the completeness of obligations in FIMS, Kearney judgmentally selected 12 NDF
ULOs from the ULO Database that was obtained from GFMS for testing, as shown in Table 8.
Kearney targeted ULOs with the highest gross obligations; consequently, these 12 ULOs totaled
approximately $131 million, thereby encompassing more than 90 percent of NDF’s total
obligated funds of approximately $143 million as of March 31, 2012.


                                                       45
                                                  UNCLASSIFIED
                                           UNCLASSIFIED


           Table 8. Global Financial Management System Sample of Unliquidated
           Obligations
              Count              Obligated                   Spent            Available
                  12              $130,675,482               $65,352,985        $65,322,497
           Source: Prepared by Kearney based on GFMS data.


       To test the completeness of the expense transactions recorded in FIMS, Kearney selected
45 expenses, as shown in Table 9, from GFMS and compared the amount reported in GFMS for
each expense to the amount in FIMS.

                  Table 9. Global Financial Management System Sample of
                  Expense Transactions
                                      Net Impact to               Gross Impact to
                     Count
                                        Expenses                     Expenses
                            45             $31,560,359                    $31,594,270
                  Source: Prepared by Kearney based on GFMS data.




                                                46
                                           UNCLASSIFIED
                                                   UNCLASSIFIED


                                                                                                              Appendix B

                                  Assessment of Contracting Controls

 Contracting                                                                                              Operating
                                                 Control Description
   Process                                                                                                Effectively?
                     Once the procurement request is completed by the project manager (PM), it
    Contract
                     is submitted to the Director of the Nonproliferation and Disarmament Fund                     No
    Initiation
                     (NDF) for review and approval.
                     Prior to executing a contract modification, the PM approves or initiates the
                     modification and provides it to the NDF Comptroller to submit through the
   Contract          Ariba module in the Integrated Logistics Management System.5 Included
                                                                                                                   No
  Modification       in this request are the terms of the modification and appropriate supporting
                     evidence of the need for contract modification. The change requisition is
                     approved by the NDF Director or Deputy Director.
                     The PM must sign off on the PM Certification of Deliverables and/or
                     Services and identify if the items listed on the invoice were fully, partially,
                                                                                                                   No
                     or not received through review of adequate evidence in order to approve
                     and invoice for payment.
     Invoice         Available funding for each expense is verified by the NDF Comptroller and
    Approval         documented through issuance of a memorandum or cable to the Bureau of
                                                                                                                   No
                     the Comptroller and Global Financial Services in Charleston or to the
                     embassy approving payment.
                     For Travel Orders, the NDF Comptroller approves the voucher as
                     evidenced by sign-off on the Travel Voucher.                                                  Yes

                     For contracts being closed with balances remaining on the obligations, the
                     PM obtains a formal release letter from the vendor to ensure no future                        Yes
                     payments are required.

                     The PM completes a contracting officer’s representative (COR)
   Contract          Completion Certificate, certifying to the Bureau of Administration, Office
   Closeout          of Logistics Management, Office of Acquisitions Management                                    Yes
                     (A/LM/AQM), Contract Closeout Team that all work has been completed
                     and final payment has been made.
                     The PM completes a COR Closeout Checklist certifying all required
                     closeout items have been accomplished and in the appropriate order                            Yes
                     outlined in the Memorandum of Understanding with A/LM/AQM.
Source: Prepared by Kearney based on its understanding of the NDF control environment and its tests of controls.




5 The Integrated Logistics Management System is the Department’s procurement system. Requests submitted by
NDF are sent to A/LM/AQM using this system. The Integrated Logistics Management System interfaces with the
Department’s Global Financial Management System.


                                                        47
                                                   UNCLASSIFIED
                                                   UNCLASSIFIED


                                                                                                             Appendix C

                    Notable Financial and Information Management System Reports

      Report                                                     Data Included
                       This report lists the following information for each fiscal year:
                               Appropriation                                    New Available Balance
  FY Available                 Appropriation Adjustments                        Notified Amount
 Balance Report                Total New Budget Authority                       Obligated Amount
 with Obligation               Administrative Costs                             Amount Returned to Nonproliferation
                               Previous Year Rollover Balance                    and Disarmament Fund (NDF)
                                                                              Balance Remaining
                       This report lists the following information for each project which has been notified:
                               Project Number                               Other [Non-NDF] Funding
                               Office of Management and Budget              Obligated Amount
   All Notified
                                Category                                     Amount Spent
  Projects Status           Project Description                             Amount Returned to External Account
     Report                 Countries                                       Amount Returned to NDF Account
                            Proposal Amount                                 Date Returned to NDF Account
                            Notified Amount                                 Financial Status
                            Date Notified                                   Work Status
                            Fiscal Year Funding Used
                       This report can be run for each NDF Project. It contains the following summary information
                       about a particular project:
                               NDF Funding                                   Interest Paid
                               External Funding (Including Listing           Actual Spent
                                the Source)                                   Available Balance
                               Overall Project Funding                       Notified
  Project Detail               Amount Obligated                              Financial Status
     Report                    Allotment Level Expenses                      Amount Returned to NDF Account
                       It also includes the following information for each obligation recorded to the project:
                               Obligation Number                                  Actual Spent
                               Obligation Type                                    Unliquidated Balance
                               Description                                        Allotment Level Expense
                               Amount Obligated                                   Interest
Source: Created by Kearney based upon review of reports available on Crystal Reports, the reporting module of FIMS.




                                                        48
                                                   UNCLASSIFIED
                              UNCLASSIFIED



                                                                                     Appendix D


                                                UnitOO SIll"" Dqm1ment ofState
                                                Bureau 0/
                                                Bureau ofinternational
                                                          International Security
                                                                        Set;lUity,
                                                 and Nonproliferation
                                                 and Nonp roliferation

                                                Washington., D.C.
                                                Washington   D.C. 20510
                                                                  10520

UNCLASSIfIED
UNCLASSIFIED                                    November 13, 2012
                                                         13,2012


INFORMATION
INFORMATlON MEMORANDUM FOR HAROLD W. GEISEL (OIG)

FROM:        ISN - Thomas M. countrym~

SUBJECT: Draft Report on Audit a/Nonproliferation and Disarmament Fund
SUBJECT:
         Controls Over Contracting and Project
                                       Projeci Management and integrity 0/
                                                              Integrity of
         FinanciallJala
         Financial Data


      1
      I am wr iting to thank the OlG
           writing               010 audit supervisors, and the audit contractor,
Kearney and Company for a thoughtful and well-researched examination of the
Nonproliferation and Disarmament Fund's (NDF) financial, program, project, and
contract management.
         management I appreciate the audit team's professionalism
                                                    professionalism,, knowledge,
and objectivity and have re .... iewed carefully the specific steps that have been
                          reviewed
identified to improve the NDF's
                          NDFs management of a complex and hard to manage
program. 1I concur with all
                         allIS18 audit recommendations (specific comments
attached). Over the next few months,l and my managers will work     work: with the NDF
to put together an action plan to determine
                                    detennine resource needs and then move to
comply with these recorrunendations.
                    recommendations. As part of these efforts, the OIG   DIG will audit
the NDF annually starting in January 2014.

       I appreciate the fact that the report acknowledged the NDF's progress. The
audit highlighted many positive aspects ofNDF's contract, project, and financial
management. The audit's constructive recommendations will be addressed one  one­­
by-one and implemented in a manner that produces a long-lasting positive effect
on the NDF operations.

       For 18 years, the NDF has provided the Department of State with a unique
capability to take advantage of diplomatic nonproliferation and disarmament
                                                                   disannament
opportunities such as eliminating the nuclear weapons programs in Libya,
di smantling plutonium
dismantling  plutoniwn production facilities
                                    facil ities in North Korea, and destroying
ballistic missiles in numerous countries, etc. Often these rapid, first -responder



                                  UNCLASSIFIED



                                   49

                              UNCLASSIFIED
                            UNCLASSIFIED





                                UNCLASSIFIED
                                        2

efforts are far removed from the embassies we rely upon to support programs
abroad; in some cases, the NDF operates in countries where the United States has
no diplomatic relations. The work is often complex, highly technical and involves
risk to our contractors. To keep this diplomatic tool effective and ensure
compliance with modem accountability standards, the NDF is committed to using,
                                  business
adapting and developing modem busine     ss tools.


Attachment:
      As stated.




                                 UNCLASSIFIED




                                 50

                            UNCLASSIFIED

           UNCLASSIFIED





            2012 Audit of NDF



     ISN Reply to DIG
                  OIG Recommendations



            November 9, 2012




11




                51

           UNCLASSIFIED

                                      UNCLASSIFIED





NOE requened this audit in 2011
NOr:                        ZOll after ita three-yeitr
                                           three-year effort by contractor ellperts t o design systems to
                                                                           experts to
improve the quality of NOr:
Improve                NOE financial, contract, and proj
                                                      project               and to assist
                                                          ect management itnd       assin us In  complyins
                                                                                              in complyin8
with the 2009
         ZOO9 NDF
              NOF audit.

NOF appreciates the compr
                     comprehens    ive audit conducted by Kearney
                            ehensive                      kearney and agrees, for the mon     part. with all
                                                                                        most part,
Ig
18 DIG recommendations. The NOE will use this audit to continue to make improvements and elqland  elCpand its
ability to develop
           deYelop and standardile
                       standardil:e recommended procedures using NOF's
                                                                     NOE's Intern al Financiallnformation
                                                                           Internal  Financiallnlormation
                      (ElMS) or, jf
Management System (fIMS)         if necessary, adopt more cost effectiYe
                                                               effective approaches that
                                                                                      thilt better meet our
needs.

               ZOlO, NOF
In September 2010,   NOE formed a Requirements Management Team (RMT) to Integra  Integratete internal
recommendations from three areas: financial,
                                       financial. contract, and project management.
                                                                        mana8ement. The RMT will wlU susgest
                                                                                                     suggest
polJcies
pol icies and procedures 10
                         to the NDF
                                NOE Director that are consistent with Department of State standards ilnd and
Industry best practices to support all OIG audit recommendations
                                                   recommendations.. The NOF's  soal 15
                                                                          NDE's 80af is to Implement
                                                                                           implement as
many Improvements as possible In an orderly and cost·effective fashion.




Fjndjnl
Findin. A.       NOE COnt@ctin!!:ProwssControlsAreinPlacebutNeed
                     COnt@ctingPnxnsControlsArtlnPlacebutNeed Improvement.

Recommendation 1: OIG recommends that the Nonproliferation and Disarmament Fund (NOE)     (NOF) develop
and Implement ita standardized procedure to help ensure complian
                                                        compliance
                                                                 ce with contract initiation and
modificati on documentation and approval requirements
modification                              requirements..

ISH/NOF Response:
ISN/NOE  Response : Concu
                       Conwrr . NOF
                                NOE prepared a checklist to ensure that procurement request packages
contain all the
            t he required documentation
                          documentation.. We will be working with the Requirements Management Team
(RMT)
(RMn to provide and organize an approp
                                    approprr iate electroni
                                                  electronicC storase
                                                              storage location for samples of the various
documents used in contract initiation and modification.

RKOmmend~ion 2: OIG
Recommendation       OIG recommends that the Nonproliferation and Disarmament Fund improve the
invoice approval process to ensur
Invoice                      ensuree that project managers receive and malntlin
                                                                           maintain the appropriate
document<ltion
  ocumentation to support
                   suppon their
                           t heir certification
                                  certlflcation of the receipt
                                                       re<:elpt of goods or services.
                                                                            services.

lSN/NOF Response: Concur. NOF will
ISN/NOF                       witt review the process we now
                                                         flOW use to certify and establish standards
for document retention.
             retention .

Recommendatlon
Recommendation 3: OIG re<ommendsrecommends t hat the Nonproliferation
                                                      Nonprotlferatlon and Disarmament Fund develop an
internal
in   te rnal process
             pr ocess to review unliquidated obligations on a periodic basis and to validate the quarterly list
                                                                                                           li st
of unliquidated obligations
                     ob!1giltlons provided by the Bureau of COmptroller
                                                            Comptroller and Global Financial Servicices
                                                                                                     es (CGFS)
il'l
  n a timely manner.

ISN/NDF    Response:: Concur. As an enhancement to NOE's Internal Financial Information Management
ISN/NOF Response                                                                                Mana8ement
System (FIM                                            obtlgations (UlOs) grouped by NOF
              S),, a CGFS report of all unliquidated obligations
         (ElMS)                                                                         NOE project will be
automatic<lily
automatically run each month and sent to NOF Finance users and th         thee appropriate NDF
                                                                                           NOF project managers
                                                                                                        managers..
The NOF
     NOE Comptr
            omptro  oller wltl
                          will provide a pol icy m emo describi ng the i nternal NOE UlO review proc
                                                                                                 process
                                                                                                      ess. The
NDF
NOE will update the NOF Project Management Guide to includ e imp!ementins
                                                                       implementing i nstructions to the NOF
staff In
      in order to validat
                    validatee the quarterly list of UlOs.

2




                                           52

                                      UNCLASSIFIED

                                       UNCLASSIFIED





  ecommendation
Recomme ndation 4: OIG
                     DIG recommends Ihallhe                             Dis~rm amenl Fund develop and
                                        that the Nonproliferation and Disarmament
implement a forma
            formall process to close oul contlOlcts In a timely manner.
                                     out contlClcts

ISN/NDF Response: Concur. KearnI!'(
                                  umey observed t hat the current NDENDF Contract Management Handbook
for ContlClcting
    Conlr.lctinl Officers
                 Officers'' Representatives (eORs)
                                             (CORs) conta ins a description of the processes used to close
                                                    contains
larle contracts, contracts
large                               uslnl simplified acquisition procedures, and contracts for
                  contlClcts Issued using                                                     fo r personal
servi ces.. NDE
services    NDF CaRs
                CORs are using these processes whewhenn contracts for which they are responsible become
complete
complete.. We are workinl
                    working with the RMT to provide and organ      ize an appro
                                                             organize           priate electronic storale
                                                                          appropriate               storage
location for samples of the various contr.lct   doseout documents
                                      contfilct closeout documents.. NOFNDf will work with the office of
Acquis
Acquisitions             d~elop standard tim@framesforNDFCORstop
        itions (AQM) to develop             tlmeframes for NDF CCRs to present     contract closeout
                                                                            resentcontractcloseout
                  packages to the AQM Contracting Officer (CO) to Impro
documentation packages                                                       ve timeliness.
                                                                       Improve

Recomme nd ndatio n S: OIG
              ation    DIG recommends that the Nonproliferation and Disarmament Fund develop a
process to formally document the projects for wh   ich the - notwithstanding authority" is
                                                 which                                  Is used, Including
when It Is invoked to ov erride portions of the FedelCll
                       override                 Federal Acquisition Regulation.
                                                                    Regulation.

ISN/NDFResponse:
ISN/NDF   Response: NDF alr  eady documents all requests to re
                          already                               rely
                                                                  ly on - notwithstanding authority" 10to
                               U.s. law in
overcome restrictions under U.S.        In providing assistance for NDF
                                                                      NOF projects
                                                                            protects In
                                                                                     in decision memotimda
                                                                                                 memorimda
approved by the Under Secrelary
                        Secretary for International5ecurity
                                        International Security Affa  irs (UIS T),
                                                               Affairs        T). which are cleared with the
Office of the legal
              lela! Advisor (L),
                            (l), and notifies Congress of any intent
                                                               intenl to rely on - notwithstanding authority"
when funds for NDF projects are notified.



        MANAGEMENT
PROJECT MANAGEMENT

Find jnl B
f indin.     ontrols oyer pProlect
         D.TContr           roJect Ma
                                   Managllment Needd Imp
                                      nagement Nee   Im pro
                                                         roye me n t
                                                            veme

RecommendOition
Recommend~tlon 6: OIG
                   DIG recommends that the NonproliferaUon
                                            NonproliferOition .nd  Disarmament Fund identify key
                                                               and Oisarmament
pmject             control~ and implement
project management controls     Implement a policy to require compliance with these key cont rols.
                                                                                        controls.

                          NDF will Id
ISN/NDF Response: Concur. NOF      Ideentify key project management controls and recommend a
compliance policy.
           policy.

 tcammendation
Recommen   dation 1:   DIG recommends that the Nonproliferation ilnd
                   7: OIG                                           and Disa
                                                                        Disarmament
                                                                             rmament Fund develop and
                    resardingthe
implement policies regarding  the use of the FIMS for project mamanal ement and
                                                                   nagement   and,, to the extent
                                                                                           exte"t possible,
add conlrols
    controls 10       thaI require the compl el
             to FIMS that                       ion of key fields.
                                             etion

ISN/NDF Response:
ISN/NOF    Response: Concur. Some key fields have been identified already. For example, add             ingg ;lann
                                                                                                    addin
ilut omated contract
automated      contlClct expiration dale
                                     date warning email generated by FIMS  flMS 90 days
                                                                                   dilYS prior 10
                                                                                               to contract
expiration allows
              allow s the program manager to take timely action to e iither begill
                                                                                begin closing out the contrac
                                                                                                       contractt or
preepparing iIa request to extend the contract. As an enhancement to FIMS, more formal project
pr
management controls Ife    Bre possible and NDF wilwilll determine wh                                    t~ process.
                                                                      .. t controls might add value to tM:
                                                                   whilt
           wUl Identify any ..additional
The RMT will                   dd itiOnal key fields
                                              rrelds and
                                                     alld controls needed and will milke
                                                                                      make a recommendation
                                                                                              recommend.tion to
the NDF Director.

  ilcommendation 8g :; OIG recommends that the Nonprolife ration and Disarmament Fund identify the
Recommendation
key project management ..activities
                             ctivities for NDF projects
                                               protects and deve lop a plan to modify FIMS capabilities to
                                                            develop
support these activities.. If NDF determines that it would not b@,costeffectiveto
              activities                                         be cost effective to upgrade
                                                                                      uPlrade FtMS,
                                                                                              FIMS, NDF

,
3




                                            53

                                       UNCLASSIFIED

                                        UNCLASSIFIED





should develop ilOd  implement
               and Imple  ment aao formll
                                   formal process
                                          procen to perform and
                                                            aond document
                                                                 dOC\Jment these key project
manaogement Ictivlt
milnasement  activities
                    les outside of FIMS.

NDF ReipOnse:
      Response: Paortlally
                  Partliilily Concur
                              Concur.. NDF designs    negot~tes, and oversees execution of d lplomltlc
                                            deSigns,, Msotliiltes,                                  iplomatic
prOl~ms In the field of nonprolife~lion,
programs                     nonprolifer.Jtion, but detailed project mlnlg
                                                                       management           defi~ by the Project
                                                                                ement (as defined
                                                   implementing entity, which may be a
Milnlgement Institute), is carried out by the implementins
Management                                                                                     foreign
                                                                                             I fore ign government,
cont~ctor and/or
contractor   aondlor an International or&anization.
                                        organization. These entities maintain
                                                                         mllntlln schedules, worll      breakdown
                                                                                                 work breaokdown
stt1Jcture (waS), and other project management lools
structure (WBS),                                               IS appropr
                                                        tools as           ia te. For example, foreign
                                                                  appropriate.
               recelvins NDF assistance often do the destruction work at
governments receiving                                                                             MOlIn Destruction
                                                                                 It Weapons of Mass
(WMD) desianated
         designated lrels
                      areas o r WMD delivery system shes; sites; on nuclear
                                                                     nuclelr related pro   jects, Oepanment
                                                                                       projects,  Department of
Energy (DOE) nationallabol1ltories
Entrgy         national laboratories ohenoften serve as  the Project Management
                                                      il5the                           O'lanllation (PMO); and on
                                                                       Milnasemenl Organization
Chemical Weapons (CW) elimin  elimination
                                    ation projects, large contractors wi with   sophisticated
                                                                            t h sop hlsticlted chemica
                                                                                                chemicall and
industrial
Industrial e ngin eering pedigrees
             ngineering    pedlsrees manage
                                      manase the projects with the U.S. Department of Defense {DoD) most
likely to serve as
                n the PMO of recorrecordd. That being Qid,         NDF concurs In the need to document key
                                                        said, the NOF
project,  prOS~m, and portfolio manag
pro}ect. program,                            ement activities and to exercise due dillsence
                                     management                                        diligence in  examining
                                                                                                  In examlnlns
re levant workflows and documentation requirements and set cost effective and practical
relevant                                                                                     p~ctic.al
standards
standards.. The RMT has been tasked with identifying Ihe      the relevant
                                                                   releYllnt workflow and documentation
requirements, making
                 makinJ recommendations
                           recomml!'ndatlons and determining polential
                                                                    potential costs.

Recommendation                              Nonprollfe~tion and
Recommendnlon 9: OIG recommends that the Nonproliferation    Ind Disarmament Fund develop and
implement procedures to ensure that doC1Jmentatlon
                                    documentation maintenance
                                                   mlintenance and retention policies are follo~
                                                                                      Ire follow ed
con sistently..
consistently

[SN/NDF  Respon~:: Concur. NOF
ISN/NDF Response              NDF will build upon the documents "NDF Document Management
                                                                                  Management"·
luldellnes and
guidelines     " Results From Project Managers
           Ind "Results                            Survey On Contract
                                      Millnage~ Sul"'ieY     ConlrKl Management
                                                                      MiIIMgement File StOfage,"
                                                                                       Storage; within
the RMT, to determint
            determine appropriate policies
                                    polities and
                                             ilnc:! procedures.

RKommendation 10: DIG
Recommendation          OIG recommen
                             recommends ds that
                                           thlt the
                                                 tnt Nonproliferation
                                                     Nonprolife,.,tlon and
                                                                       ind Dis.armament
                                                                            Disarmament Fund develop aiI
standard tlmeframe for closing
                         closi08 out projects
                                     projeca and implement
                                                   Implement a policy to10 ensu re stillndlrd
                                                                           ensure  standard timeframes
                                                                                              t imemmes for
project clo~
        close outs are
                   ,ue met or the reaso         delays documented.
                                        ns for delay,;
                                  reasons

ISN/NDF Response: Concur with comment. NOF        NDF will establish a policy to include
                                                                                  Include aI tlmeline to closeout
                                                                                                         cioseout
NDF projects and return remaining funds to the NOF     NDF account.
                                                            ICcount. The total number of active
                                                                                             Ictive projects
referen ced in
referenced    In the
                  tht! DIG
                       OIG report iIncludes
                                    ncludes administrative
                                            admlnistntiYe funds,
                                                             funds, which are
                                                                           Ire funds that are set as ide
spedficillly
specifICa lly forthe    ope~tion of the NDF and
              for the oper.ltion              ilnd are not project
                                                            pro}ect funds . Attached   for reference IIs Chart A.
                                                                             AUiched for
                            sts the NDF' s 33 currently
Active Projects, which lilists                cUfl'ently active projects. Below are three specific
                                                                                              spedfic page
references in In the OIG report that n eed to be changed
                                                   changed::

Pillit
POise Ii:
       6: "At
           "AllfIfo time of th is audit,
               the time           oudit. there
                                         theft were  46 active
                                               were 46    octlw: projects,funded/or     approximately $323
                                                                 projects, funded fCW'opprtNIimottly    $323 milliOll,
                                                                                                              miflioo,
and
ond 43    projects in the
     43/Xojrcts       tflfo closeou
                            doseoutt phose,
                                      phose, funded for
                                                     fOl' opproximotely           million. Of 46
                                                                           $105 million.
                                                          opproJ(/motety $J05                 46 octive
                                                                                                 OCIive projects, 34
                                                                                                                  34
were   country-sped[/C projms
wefe country·specific       projects ond 12 were far
                                                  fCW' odministrative
                                                       odminislrativr task
                                                                        tOSKs,
                                                                             S, such as
                                                                                      os FIM5
                                                                                         FIMS development
                                                                                               devrlopment and
                                                                                                             ond
maintenance.·
mointenonce.· ISN/NOF
                    tSN/NDF Comment: Per Chart A         (attached), there are 33 active projects. There are 42
                                                       A (attached),                                              42
                     phase, as shown
projects In closeout phase,    shown In Chart C (attached).
                                                (attacntd), Closing
                                                            Closinl Projects
                                                                    Profects -· Financial Review Complete.
                                                                                                 Completl!'.

Page  22: "However,
Pas. 22    "~W:f, theretherr were still
                                    still projects,
                                          projects, both country·speciflC
                                                         c(J(Jnrry-sp«lfic ond
                                                                           ond admin  istrative, inappropriotely
                                                                               odmlnlJtrotive,   inoppropriotety
ldenll[ted as
identified os ·octive
              "OCIive"" in
                         in FIMS."
                            FIMS.· ISN/NDF
                                   I5N/NDF Comment:
                                               Comment: This
                                                          This statement needs
                                                                            needs to           Idminlst~tiye
                                                                                  to exclude administrative
funds.
funds.




44




                                             54

                                        UNCLASSIFIED

                                          UNCLASSIFIED





On pag
   paaee 36: Table 1 sta tes that there are
                     states             art 46 active projects
                                                      projects.. ISN / NOF Comment:
                                                                 ISN/NOF                       A. there are
                                                                                    Perr Chart A,
                                                                           COmment: Pe
33 active projects..
   KtiYe projects



FINANCIAL MANAGEMENT


Rndln. C. Data
FlndlnR   Dilla Integrity
                Inturftv and
                          lind Reportlnl Cf pabiliti es Need
                                         ClAabjljtin         Improvement to Produce
                                                        N"d ImArpyement              Audl~bl,
                                                                            Produte: AudlQbl.
Financial
Ananclal Reports.

Rlcomm.ndatlon 11: OIG recommends that the Nonproliferation and
Recommendiltlon                                                        Olnl;l Disarmament Fund Improve Its
policies and procedur es for r ecor
             procedures                                  e~penses iIn the FinBnclill
                               eco rding obligations and e)(penses         Financial and In fo rmation
                                                                                         Information
Management Syslems
              Systems (ElMS),
                       (FIMS). by developing, at a minimum:

     Oariflcation on the documentation
     Clarification       dorumentation required to record
                                                     ffiOrd in
                                                            an obl1gation,
                                                               obligation, especially miscellaneous
                                                                                      misceUanl!Ous
         obligations.
     Instn.Jctions
     Instructions on the proper uuse                ~f1aB.-
                                  ~ of the estimate -flal."
     A                                                              e~pense transaction and its
     A standard for an acceptable t ime between the approval of an e)(pense                    hs entry into
         FIM
          FIMSS.

ISN /NDF Response:
ISH/NOF   Response: COncur,            comment.. Timeliness Is
                       Concur, with comment                      15 a major   Issue. The requirement
                                                                       ma)or issue.          equ ireme nt fo  forr
documentation before obligations
doalmentation              obliBations are estib
                                            established
                                                   lished has always existed iIn NDF.         lAAs, MOUs, MOAs, MOOs,
                                                                                       NOF. IAAs,                    MODs,
travel              contract statements of work
Itavel orders, and contnlct                     wort that
                                                       thit include
                                                             Include fitlmated
                                                                       estimated spendlrc
                                                                                     spending for the work normally
should not be iIa problem. The problem occurs with Miscellaneous
                                                            Ml5cenaDeOus Ob        ligations (M9) documentation,
                                                                               Obligations
email printing
       priMing and
                Ind filing.
                     filing. Dep  ending on the age 01
                              Dependi",                 of the sample data,
                                                                         diltil, staffing
                                                                                 statnrc levels, and Ind urgency of
reaction, ke eping
          keep  inc the program
                          progrotm moving
                                    movlllll may have taken precedence over Imm        Immedediately
                                                                                                ll tely printing
                                                                                                        printina and filing
emilil
email backup for M9 obligation
                         obJ1g;Jtion transactions. This creates the elKtronic
                                                                         electronic versus paper~per trail
                                                                                                        trotll
documentation
docum.ntation problem. However, more recent years'               flies should show slAnlflc.ant
                                                         yeilrs' files                  significant iImprovement
                                                                                                       mprovement in M9
transactions
t(lnuctions documentation. A       A checklist for
                                               lor obligation supportlns
                                                                 supporting documentltion
                                                                               documentation,, including M9, w ill be
added to the Project
               Profett Manager Users Guide.

Obligation
Obllcatlon numbers are gene    rated by FIMS and are us
                          generated                      ed to establish oblilations
                                                       used              obligations into
                                                                                     Into Ariba, E2   Solutions
                                                                                                   £2Solutions
Ind GFMS. The obligations
and               oblialtions generated               proce~d as estimates since there is
                              genenlted by FIMS are processed                                Is a poss
                                                                                                  posslbflity
                                                                                                       ibility
that the amount of the obligation entered
                                     entered In FIMS will change.
                                                          (hance. FIMS w ill not allow the
                                                                                        t!'le record ing of an
                                                                                              recording
expense without removing
                   removinl th e flag for estimates. In the requirement
                             the                            requIrement to rem   ove the estimate
                                                                             remove        emmite flag
before expenditures
        e)(pendltures can be recorded
                              rfiorded to the obligations is
                                                           Is an
                                                              In Inh erent reminder to verify that the
                                                                 Inherent
obllgltlon in
obligation  In FIMS agrees
                    .grees with
                            with the Department's Financial System before rremoving
                                                                               emovlns the estimated flag.

Regarding the
            the standard for an In acceptable time between an    In e~pense
                                                                    ueense transaction and its its entry Into
                                                                                                          In to ElMS,
                                                                                                                FIMS,
e~p-ense
upense transactions
          tra nsactions (invoices) are
                                    are processed and approved in     in NOF
                                                                         NDF are recorded
                                                                                  recorded Immediately
                                                                                           ImmedIa tely intoInto FIMS.
                   known e~pense
Generally, other known       expense transactions should be entered into  Into FIMS weekly.
                                                                                     weekly. Delays
                                                                                             Delays occur
                                                                                                      oc.cur due to
staff
staff shortage
      shortage andnd workload
                     wortload prior   ities. Personal Service (PSC) contract payments are
                                 priorities.                                              ilre processed
                                                                                               processed by the
payroll Inteliace.
        Interface. NDE
                    NOF fin   ance doe
                           finance duess n ot have authori zat ion to review th
                                                   authorization                 em before they
                                                                               them         they gogo to GFMS
                                                                                                         GFMS.. W We
plan
plan to build a tool
                 tool t oo comp are GFMS and
                           compare          and FIMS, when
                                                      when and
                                                             Ind ifif GFMS downloads areare available.
                                                                                             available.

Policies     procedures for recording
Policies and procedures                  obligations and e~penses
                              re<:ording obligations      expeOSH in In the FIMS
                                                                            FIMS exist now. However,
                                                                                             However, the
                                                                                                      the
procedures for the
                 the removal
                     removal of
                              of the
                                 the - estimated flag" are nOllnclud   ed in the
                                                            not Included     the FIMS
                                                                                 FIMS Quid
                                                                                       Quick Reference Guide
                                                                                                       Guide
of
of 2008.
   2008. The
          The eestimited
                stimated flag
                         flig process
                              process is being
                                          beIng added
                                                added in
                                                       In the
                                                          the Guide's   update. As
                                                              Guide's update.    As an
                                                                                    In enhancement
                                                                                       enhancement toto FIMS,
                                                                                                        FlMS,



55




                                               55

                                          UNCLASSIFIED

                                        UNCLASSIFIED





                                                                         e~plore adding "as of'
automated periodic reconciliation processes can be developed. NDF should explore
functionaUtles. We plan to advertis
functionalities.           advertisee to fill
                                         fiU th
                                              the
                                                e vacant FrE.
                                                         FTE.

Recommendation 12: OIG recommends that the Nonp    Nonprroliferation and Disarmament Fund develop and
implement policies and procedu
                        rocedurres
                                 es for reconciling financia
                                                    financiall data in the FIMS to the financial data in the
GFMS on a periodic basis, including requirements for documenting and reviewing the reconciliation.

ISN/NDF Response
          Response:: Concu
                      Concurr . NDF agrees it should Improve
                                                      improve the
                                                               t he reconciliation process before th thee final
project closeout. The re  view and reconciliation usually occur on active projects when the program
                        review
managers request
            equest a project Detail Report from the program managers' assigned finance officer.
However, NDF has not been at full staff levels since 2009 . During this audit there was only one full time
finance offker
        offICer in place out of the three full time positions in the NDF. That
                                                                          Th at one full time financ
                                                                                               financee officer
provides financial services to eight program managers. Once the staff levels are in place,
                                                                                        pl ace, permanent
staff members will be assigned to each program manager and the routine reconciliation process will
resume. For now, reconciliation between GFMS and FIMS is a manual process subject to priorities pri orities of
workload.

                                                                       eKpenditures) could be greatly
The reconciliation process and transaction integrity (obligation and expenditures)
enhanced with downloads from GFMS that would help facilitate the accuracy of information in F1MS to
GFMS. As an enhancement to FIMS, automated periodic reconciliation
                                                            reconCiliation processes will be explored by the
NDF.
    Addressing staff shortfalls to focus on reconciliation process of GfMS and FIMS
                                                                                 flMS

    Use GFMS reports along with the FIMS obligation reports. NDF is in the proc
                                                                           process
                                                                                ess of developing a
        reconciliation process.
                       prOCf!5$.

    NDF plans to incorporate the OIG recommendation process received 10/18/2012 into the
       reconciliation
       ff:!conciliation process.

Recommendation 13: OIG recommends
                             rec.ommends that the Nonproliferation and Disarmament Fund develop
poliCies
policies regarding the responsibility of NDF
                                         NOF in the contracting process when donated funds are  afe used.
Additionally, NDF should modify FlMS
                                   FIMS so that donated funds are tracked separately, which would
include the capability to link obligations to specific sources of funding instead of to the project as a
Include
whole.

ISN/NDF Response: Concur, with comments. NDF only receives donor funds on a project
                                                                                project--specific basis,
and each project will have unique contractual requirements. Therefore, NDF will coordinate with AQM,
RM, L.                                                                      mod~litles .
    L, and donor governments on a case-by-case basis to develop appropriate modalities.

Donated funds are tracked separately in both GFM5 and FIM5. While GFMS does use one Fund 5Vmbol       Symbol
(1075.0               LimitationH) to identify all donated funds, it uses Allotment and Operating Allowance
(107S.0 or HPoint D Umitation   N
                                    )



codes to Identify
          identify the donor nation and the recipient
                                              rec.ipient nation, respectively. FIMS maintains th
                                                                                              this
                                                                                                 is level of
detail as well
          wel l and includes the capability to link obligations directly to these funds. Procedures will be
added to the FIMS Quick Reference Guide. Donated funds reports are being enhanced and developed in
                                      e~penditures, and available balances from the projects.
FIMS to include funds, obligations, expenditures,

Recommendation 14 14:: OIG recommends that the Nonproliferation and Disarmament Fund identify end­ end·
users reporting needs and modify FI MS to meet the reporting needs identified. If NDF determines tha
                                                                                                  thatt it
would not be cost-effective to modify FIMS to address certain end-user report
                                                                       reportii ng needs, NOF should


6




                                             56

                                        UNCLASSIFIED

                                     UNCLASSIFIED





document the rationale for making
                           makln8 this decision and deve
                                                    develop
                                                         lop a formal process for manually prepar
                                                                                           preparing
                                                                                                  ing
the required reports.

ISN/NDF Response: Concur. NDF agrees to develop a plan to Identify
                                                                identify end-user reporting needs. NDF
can run reports as of a point in time. NDF can run extra reports to track history. The reports for donor
nations are available in FIMS in regard to identifying donated funds, to which NDF projects they have
been applied, and for whi
                       whicch obligations and expenditures have been used. Project manager(s) produce
project progress and overview reports, and these reports are not expected to be produced directly from
FIMS. These reports are to be scanned into FIMS and tagged to the appropriate project. Modifying
FIMS to meet the reporting
                  reportlns needs will take longer.
                                             lonSer.

Recommendation 15:
                 lS: DIG recommends that the Nonproliferation aAd
                                                              and Disarmament Fund prepare a
comprehensive system security plan for the FIMS.

ISN/NDF Response: COncur
                     COncur.. NDF Is
                                   is current working
                                              wori<.inS on the accreditation and certification process as
outlined in Federal Information Processing
                                 Processins Standard (FIPS)
                                                        (FIPSj 197. The CUrTent
                                                                        current contract for FlMS
                                                                                             FIMS services Is
                                                                                                           is
In the process of being modified to add funding for the system security plan. NDF currently has h as an IT
contract that Includes
              includes a provision for a contingency
                                         continSency plan in FIMS.
                                                               F1MS. The architectural layout for the
reconstitution of data is underway.

Recommendation 16: lEi: DIG
                        OIG recommends that the Nonproliferation and Disarmament Fund review the
permissions of all FIMS users and
                               aAd verify that their access privlleSes
                                                            privileges are conSistent
                                                                           consistent with their job
functions and responsibilities.

ISN/NDF Response: Concur.

Recommendation 17: DIG OIG recommends that the Nonproliferation and Disarmament Fund assess its
         chanse control process for FIMS and determ
current change                               determine
                                                    ine If
                                                        if add
                                                           addition
                                                               itional
                                                                    al reviews or testing
                                                                                  testins changes
                                                                                          chanSes are
requ ired.
required.

ISN/NDF Response: Concur.

Recommendation 18: DIG recommends that the Nonproliferation and Disarmament Fund
                                                                            fund fina li
                                                                                      lize
                                                                                         ze and
implement its contingency plan for FlM S.

                    Con~ur. NDF will develop a current contingency plan.
ISN/NDF Response: Concur.                                           pl~n . This is included in the current
                                                                                          ~pplication
contract. The Disaster Recovery and Data Backup services provided by SalesForce as the application
platform for FIMS has been shown to satisfy NIST standards in regards
                                                              resards to the prevention of loss of data.
The FIMS Contin
          Contingency
                gency Plan bui
                           builds
                               lds on these services to document continu
                                                                 continuity
                                                                         ity operations procedures for
recovery of NDf
            NDF processes.




7




                                          57

                                     UNCLASSIFIED

       UNCLASSIFIED





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS

   HURTS EVERYONE.


          CONTACT THE

  OFFICE OF INSPECTOR GENERAL

             HOTLINE

       TO REPORT ILLEGAL

    OR WASTEFUL ACTIVITIES:



         202-647-3320

         800-409-9926

      oighotline@state.gov

          oig.state.gov


   Office of Inspector General

    U.S. Department of State

         P.O. Box 9778

     Arlington, VA 22219





       UNCLASSIFIED

UNCLASSIFIED





UNCLASSIFIED

